<html>
<title> - HEARING TO REVIEW USDA FARM BILL CONSERVATION PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



             REVIEW OF USDA FARM BILL CONSERVATION PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, CREDIT,
                          ENERGY, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 19, 2007

                               __________

                           Serial No. 110-12


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                 ------

                   U.S. GOVERNMENT PRINTING OFFICE
41-481 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001














                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia,
    Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 KEVIN McCARTHY, California
NICK LAMPSON, Texas                  TIM WALBERG, Michigan
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff
                    Robert L. Larew, Chief of Staff
                     Andrew W. Baker, Chief Counsel
                 April Slayton, Communications Director

           William E. O'Conner, Jr., Minority Staff Director

                                 ______

       Subcommittee on Conservation, Credit, Energy, and Research

                   TIM HOLDEN, Pennsylvania,Chairman

STEPHANIE HERSETH SANDLIN, South     FRANK D. LUCAS, Oklahoma,
Dakota                                   Ranking Minority Member
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
JIM COSTA, California                STEVE KING , Iowa
BRAD ELLSWORTH, Indiana              JEFF FORTENBERRY, Nebraska
ZACHARY T. SPACE, Ohio               JEAN SCHMIDT, Ohio
TIM WALZ, Minnesota                  TIMOTHY WALBERG, Michigan
DAVID SCOTT, Georgia                 TERRY EVERETT, Alabama
JOHN T. SALAZAR, Colorado            JERRY MORAN, Kansas
NANCY E. BOYDA, Kansas               ROBIN HAYES, North Carolina
KIRSTEN E. GILLIBRAND, New York      SAM GRAVES, Missouri
DENNIS A. CARDOZA, California        JO BONNER, Alabama
LEONARD L. BOSWELL, Iowa             MARILYN N. MUSGRAVE, Colorado
STEVE KAGEN, Wisconsin

              Nona S. Darrell, Subcommittee Staff Director

                                  (ii)



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Holden, Hon. Tim, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................    42
Lucas, Hon. Frank, a Representative in Congress from the State of 
  Oklahoma, opening statement....................................     2
    Prepared statement...........................................    43
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota, opening statement..........................     3
    Prepared statement...........................................    47
Walz, Hon. Timothy J., a Representative in Congress from the 
  State of Minnesota, prepared statement.........................    45
Goodlatte, Hon. Bob, a Representative in Congress from the 
  Commonwealth of Virginia, prepared statement...................    49

                               Witnesses

LaFleur, Mr. Jeff, Executive Director, Cape Cod Cranberry 
  Growers' Association, on behalf of New England Farmers Union 
  and National Farmers Union, Wareham, Massachusetts.............     5
    Prepared statement...........................................   151
Jamison, Mr. Charles ``Jamie'', National Corn Growers 
  Association, Dickerson, Maryland...............................     6
    Prepared statement...........................................   158
Elworth, Mr. Lawrence, Executive Director, Center for 
  Agricultural Partnerships, Asheville, North Carolina...........     7
    Prepared statement...........................................   163
Nelsen, Mr. Joel, President, California Citrus Mutual, Exeter, 
  California.....................................................     9
    Prepared statement...........................................   166
Foglesong, Mr. Steve, National Cattleman's Beef Association, 
  Astoria, Illinois..............................................    11
    Prepared statement...........................................   169
Wolf, Mr. Douglas, Wolf L&G Farms, LLC., on behalf of the 
  National Pork Producers Council, Lancaster, Wisconsin..........    13
    Prepared statement...........................................   177
Lail, Dr. Slade, American Tree Farm System, Plumbdent Farms, 
  Duluth, Georgia................................................    15
    Prepared statement...........................................   197
Nomsen, Mr. David E., Vice President, Governmental Affairs, 
  Pheasants Forever and Quail Forever, on behalf of Agriculture 
  and Wildlife Working Group and the American Wildlife 
  Conservation Partners, Garfield, Minnesota.....................    25
    Prepared statement...........................................   201
Grossi, Mr. Ralph, President, American Farmland Trust, 
  Washington, D.C................................................    26
    Prepared statement...........................................   207
Sims, Mr. Olin, President, National Association of Conservation 
  Districts, McFadden, Wyoming...................................    28
    Prepared statement...........................................   210
Beauduy, Mr. Thomas W., Deputy Director & Counsel, Susquehanna 
  River Basin Commission, Harrisburg, Pennsylvania...............    30
    Prepared statement...........................................   217
Cook, Mr. Ken, President, Environmental Working Group, 
  Washington, D.C................................................    32
    Prepared statement...........................................   221
Kemp, Ms. Loni, Senior Policy Analyst, The Minnesota Project, 
  Canton, Minnesota..............................................    34
    Prepared statement...........................................   260

                           Submitted Material

Adams, Laurie Davies, Executive Director, Coevolution Institute, 
  San Francisco, California......................................    51
Dreher, Robert G., Vice President of Land Conservation, Defenders 
  of Wildlife, Washington, D.C...................................    58
Gieseke, Tim, The Minnesota Project, Canton, Minnesota...........    68
Witteman, Aimee, Sustainable Agriculture Coalition, Washington, 
  D.C............................................................   106
Robertson, Gordon C., Vice President, American Sportfishing 
  Association, and Steve Moyer, Vice President for Government 
  Affairs and Volunteer Operations, Trout Unlimited..............   108
United Egg Producers, Alpharetta, Georgia........................   110
Soil and Water Conservation Society, Ankeny, Iowa................   117

 
         HEARING TO REVIEW USDA FARM BILL CONSERVATION PROGRAMS

                              ----------                              


                        THURSDAY, APRIL 19, 2007

                  House of Representatives,
                           Committee on Agriculture
 Subcommittee on Conservation, Credit, Energy, and Research
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:08 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Tim 
Holden [Chairman of the Subcommittee] presiding.
    Members present: Representatives Holden, Costa, Space, 
Walz, Scott, Salazar, Gillibrand, Kagen, Donnelly, Peterson, 
Lucas, Fortenberry, Schmidt and Moran.

STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF PENNSYLVANIA

    Mr. Holden. This hearing of the Subcommittee on 
Conversation, Credit, Energy and Research to review USDA farm 
bill conservation programs will come to order.
    The first business of the day, I will say to the ranking 
member, is to recognize our newest member of the subcommittee, 
Mr. Joseph Donnelly from Indiana. We welcome you to the 
subcommittee, Mr. Donnelly.
    Mr. Donnelly. Thank you very much, Mr. Chairman. It is an 
honor to be here and I am very grateful for the opportunity.
    Mr. Holden. Well, we look forward to working with you as 
you are filling in for Mr. Boswell, who has numerous 
responsibilities not only on this committee but in other 
committees in the Congress, so we certainly do welcome you, and 
even though I am from Pennsylvania, the part of Pennsylvania I 
am from would always say ``Go Irish'' so we certainly welcome 
someone from South Bend, Indiana to the------
    Mr. Donnelly. Mr. Chairman, we are on the same planet.
    Mr. Holden. I would like to welcome our witnesses and 
guests to today's hearing. I hope this hearing will provide a 
useful review of conservation programs in the farm bill. The 
2002 Farm Bill was the biggest investment in conservation in 
the history of farm bills. The conservation title dedicated 
over $17 billion in additional investment for conservation 
programs, an increase of 80 percent. While the budget may be 
tight, I believe we need to see if we can match that in the 
upcoming farm bill reauthorization. Conservation funds have 
allowed many farms to meet environmental regulations in this 
changing industry. Conservation programs assist our farmers and 
ranchers in strengthening their environmental stewardship. That 
is important for looking after the land and water that we will 
pass on to future generations.
    In the current farm bill, we funded the most significant 
programs in order to preserve farmland and to improve water 
quality and soil conservation on working land. We addressed 
environmental concerns and sought to make conservation a 
cornerstone of agriculture for producers in all the regions of 
the country. Our Nation's farms and ranches produce far more 
than traditional food and fiber. Well-managed agricultural land 
also produces healthy soil, clean air, clean water, wildlife 
habitat and pleasant landscapes, all of which are valued by 
rural and urban citizens alike.
    During this hearing, I hope we can answer many questions. 
Are current conservation programs working for all regions? How 
can we account for the rising cost of energy? How can we 
support the diversity of crops across the Nation and how do we 
stabilize and keep agricultural operations in business so that 
they can continue to protect our environment? I look forward to 
hearing suggestions that the witnesses may have as to what 
Congress can do to ensure agriculture's continued role in 
conservation.
    I would ask all members of the subcommittee to submit their 
opening statements for the record with a few exceptions, the 
first being my friend and the Ranking Member of the 
Subcommittee, from Oklahoma, Mr. Lucas.

STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Lucas. Thank you, Mr. Chairman, and good afternoon and 
welcome to today's hearing to review USDA's farm bill 
conservation programs.
    Today's hearing is the final conservation hearing this 
subcommittee will hold before beginning to write the 
conservation title of the next farm bill. The 2002 Farm Bill 
provided the greatest funding increase ever for conservation 
programs. The farm bill's conservation programs have 
undoubtedly been a huge success, providing for benefits to 
soil, water and air quality. We are proud of what we 
accomplished in the 2002 Farm Bill and want to build on that in 
the next farm bill. Our farm bill hearings over the last 15 
months have given us a great deal of insight into how the 
current conservation programs are working.
    This subcommittee has been charged with trying to reach 
consensus on what kind of conservation title should be included 
in the next farm bill. This hearing will allow us to discuss 
many of our conservation programs in depth and I am interested 
to hear how you all think that the current programs are 
operating, what changes need to be made in the programs and 
their funding levels and whether current programs or new 
programs are needed to meet producers' compliance with 
regulatory standards. Specifically, I am interested in hearing 
your thoughts on the CRP program, how that program has been 
utilized or could be utilized in renewable energy crop 
production, is there support for releasing the less 
environmentally sensitive areas for production and replacing 
those acres with more sensitive land. Additionally, I hope to 
hear your thoughts on EQIP, which is vitally important in my 
home State of Oklahoma. We are spending substantially on that 
program today with an increased funding level from $200 
annually in 2002 to $1,300,000,000 in 2007. We should examine 
whether there are improvements or adjustments that need to be 
made in the program to make it more effective for producers.
    As I reviewed the testimony for today's hearing, I found 
overwhelming support for conservation technical assistance. 
Producers benefit greatly from the assistance they receive from 
knowledgeable staff and committed local partners. There seems 
to be a consensus among program users that technical assistance 
funding is inadequate and the delivery system is the lifeline 
to ensuring the success of conservation programs. So I look 
forward to hearing more about this issue from our witnesses. 
What we need to remember today is that we have a limited number 
of resources in which to write the conservation title. We will 
no doubt have lots of requests and advice and input on the best 
way to spend that money allocated to us. However, it is 
difficult to balance out all of the requests since all of the 
ideas have so much merit. That is why we must focus on what is 
working and what is not working and what is being done 
efficiently and effectively and what is not. I look forward to 
today's hearing and I am very pleased that you called it, Mr. 
Chairman.
    Mr. Holden. The Chair thanks the Ranking Member and 
recognizes the chairman of the full committee, Mr. Peterson.

   STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. I thank the chairman, and I want to thank he 
and the ranking member for their leadership on this issue, and 
you guys have attracted quite a crowd, so I think that shows 
the interest there is in this area of the farm bill.
    The conservation programs that we have been able to put in 
place help our farmers and ranchers preserve their land and 
also provide us with clean air, clean water and areas to 
recreate, hunt, and fish. The 2002 Farm Bill demonstrated our 
commitment to conservation by doubling the conservation 
funding, and I think that is a very good thing.
    This year is a little different. We are facing some 
restrictions as we write this upcoming farm bill, both 
budgetary and practical. The budget constraints have left us 
without new money for the Wetland Reserve and the Grassland 
Reserve Programs. Also, there simply isn't enough money to run 
programs like CSP in the way that some people have been 
suggesting. The workload constraints at USDA are another 
restriction. We need to take a look at bringing in non-federal 
partners to help provide technical assistance for existing 
conservation programs.
    But even with those obstacles, we will continue to have a 
strong conservation title in the upcoming farm bill. I share 
the concern of many of the witnesses about the backlog of unmet 
demand for conservation programs. Looking past the opticals, 
renewable energy production provides an unparalleled 
opportunity for American agriculture. I believe we can blend 
these two missions to preserve farmland and create wildlife 
habitats while growing feedstocks for biofuels and using manure 
to create electricity and synthetic gas.
    I just want to say, there have been a lot of conservation 
groups that have been working very hard for the last year, year 
and a half and I commend them for the work that they have done 
pulling together I think the biggest coalition we have ever had 
coming behind some proposals that they have brought to us and 
it is very helpful and I have to say I agree with most of what 
they put together, but we are trying to resolve this budget 
issue in the next couple weeks so that we know exactly where we 
are.
    In the commodity title of the farm bill, we have given up 
$60 billion of spending that was there in 2002 that is not 
there projected to be there in 2007. We get no credit for that. 
Just like a lot of other things and the way we operate these 
programs, when we take out our loans, we get charged. When we 
pay them back, we don't get credit. So we feel like we have a 
good case to make that by asking for $20 billion back out of 
the $60 billion that we gave up, that is a reasonable thing. 
And frankly, if we don't figure out some way to find the 
offsets, we are not going to be able to do the things that you 
guys are going to be talking to us about today. I told a lot of 
people around the country that in my part of the world, we can 
write a farm bill with the money we have and I can go home and 
I won't get lynched. People in the commodity area are basically 
telling us that even though they are going to spend $60 billion 
less, they can live with it if we keep what is in place, it has 
worked well in the past, and we have heard that around the 
country.
    But there are all these other opportunities and needs in 
conservation, rural development, fruits and vegetables, food 
stamps, renewable fuels. So all of you that are interested in 
these areas of the farm bill, you need to help us, talk to all 
your members of Congress, Senators and the leadership to help 
us get the offsets so that we can have this additional money to 
do a farm bill to take advantage of these opportunities that 
are in front of us and to move this in the right direction. So 
we are hopeful that process will come out positively.
    So I thank the chairman and the ranking member of the 
subcommittee for all of their hard work and I look forward to 
hearing the witnesses.
    Mr. Holden. The Chair would like to thank the chairman of 
the full committee and we welcome our first panel to the table: 
Mr. Jeff LaFleur, Executive Director, Cape Cod Cranberry 
Growers' Association on behalf of New England Farmers Union and 
National Farmers Union from Wareham, Massachusetts; Mr. Charles 
``Jamie'' Jamison, National Corn Growers Association from 
Dickerson, Maryland; Mr. Lawrence Elworth, Executive Director, 
Center for Agriculture Partnerships, Asheville, North Carolina; 
Mr. Joel Nelsen, President, California Citrus Mutual from 
Exeter, California; Mr. Steve Foglesong, National Cattlemen's 
Beef Association from Astoria, Illinois; Mr. Douglas Wolf from 
Wolf L&G Farms, on behalf of the National Pork Producers of 
Lancaster, Wisconsin; Mr. Slade Lail, American Tree Farm 
System, Plumbdent Farms from Duluth, Georgia.
    Mr. LaFleur, you may begin. I ask all witnesses to try to 
keep their remarks to five minutes and submit the balance of 
their testimony for the record.
    Mr. LaFleur.

    STATEMENT OF JEFF LAFLEUR, EXECUTIVE DIRECTOR, CAPE COD 
   CRANBERRY GROWERS' ASSOCIATION, ON BEHALF OF NEW ENGLAND 
      FARMERS UNION AND NATIONAL FARMERS UNION, WAREHAM, 
                         MASSACHUSETTS

    Mr. LaFleur. Thank you, Mr. Chairman, Congressman Lucas and 
members of the Subcommittee. Thank you for the opportunity to 
testify today. My name is Jeff LaFleur. As president of the New 
England Farmers Union, the newest NFU chapter, I am here today 
on behalf of the National Farmers Union, a Nationwide 
organization representing more than 250,000 farmers, ranchers, 
fishermen and rural residents. I also serve as executive 
director of the Cape Cod Cranberry Growers' Association.
    We believe the 2007 Farm Bill should build upon existing 
programs while encouraging further investment in new efforts. 
By coupling the environmental needs of our fragile farmlands 
with the socioeconomic goals of our farming communities, the 
new farm bill can do even more to create the opportunity to 
reward stewardship, discourage speculative development of 
fragile land resources and strengthen family farming in rural 
communities.
    Mr. Chairman, I want to specifically mention NFU's strong 
support for several existing programs. The Conservation 
Security Program and the Environmental Quality Incentives 
Program should be fully funded. CSP is one of the most 
innovative attempts to reward producers for conservation 
practices on working lands and EQIP certainly has been a great 
success. To make even better use of these limited funds though, 
states should be permitted to set EQIP priorities based upon 
local environmental challenges. Additionally, the successes of 
these programs is based upon delivery of technical assistance 
to the producers. NRCS staff, who normally provide technical 
assistance, are now responsible for completing producer 
payments. All payment paperwork should return to the Farm 
Service Agency, namely the agency that excels in delivering 
payments to producers.
    In addition, NFU supports the development of a one step 
conservation planning step for agriculture through NRCS. We 
recommend a single conservation plan, a plan that should be 
developed by the farm operator in conjunction with NRCS and the 
local conservation district in order to secure compliance with 
the myriad of land and water regulations established by various 
Government agencies. NFU also supports Conservation Reserve 
Program and it urges you to do all you can to ensure that CRP 
is not reduced by the 39.2-million-acre cap.
    I want to bring to your attention to two new initiatives 
for the subcommittee's consideration. First is our desire to 
seek a Nationwide buffer strip initiative. Buffer strips play a 
key role in maintaining healthy productive farms as well as 
protecting fragile and vital waterways throughout the country. 
When designated appropriately, buffer strips help producers 
maintain their best land and crop production and make good use 
of marginal land. We urge you to consider a new Nationwide 
buffer strip initiative that builds upon the proven success of 
past buffer strip initiatives. Some would say this would be an 
expensive endeavor. However, billions of dollars are spent by 
the U.S. Army Corps of Engineers and other federal, state, and 
local agencies to address water quality problems that could 
have been alleviated proactively through the results of a 
buffer strip initiative. NFU urges the subcommittee and the 
full committee to work with the appropriate committees in 
Congress to see if there are ways to institute such a program.
    And finally, I want to mention NFU's innovative carbon 
credit trading program. As we all know, there is a growing 
public concern about global climate change. Our newly 
established carbon credit program is a voluntary private-sector 
approach to conservation that allows producers to earn income 
on carbon credit market by storing carbon in their soil through 
practices such as no-till farming. I am pleased to report that 
our program, which began in October of 2006, has already 
enrolled over one million acres. NFU aggregates the credits for 
our members and then trades then on the Chicago Climate 
Exchange. We believe that the carbon credit program and buffer 
strip initiative could be established to work within existing 
tier system of CSP or adopted as new tiers of participation.
    Mr. Chairman, interactions with our Nation's natural 
resources do not need to set agricultural producers in 
opposition to the environment. As NFU members have demonstrated 
for many generations, farmers, ranchers and fisherman are the 
best environmental stewards and their astute understanding of 
the natural world deserves to be recognized and rewarded.
    With that, Mr. Chairman, I thank you again for the 
opportunity to testify and I would be happy to answer any 
questions the subcommittee may have.
    Mr. Holden. Thank you, Mr. LaFleur.
    Mr. Jamison.

 STATEMENT OF CHARLES ``JAMIE'' JAMISON, NATIONAL CORN GROWERS 
                ASSOCIATION, DICKERSON, MARYLAND

    Mr. Jamison. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to testify today for the 
conservation title of the next farm bill. I am Jamie Jamison 
from Dickerson, Maryland, a member of the Corn Board for the 
National Corn Growers Association. I grow corn, wheat, and 
soybeans on my farm, which is located 35 miles outside of 
Washington, D.C., in the Chesapeake Bay watershed.
    In 1969, my good friend, Bob Raver, planted the first no-
till corn in Montgomery County, Maryland. In 1970, I planted my 
first no-till corn. A few years later, we planted no-till 
soybeans and several years after that we planted no-till wheat. 
I was not alone in this endeavor. As growers who wanted to keep 
our farms alive, we all shared our mistakes and successes. 
Thirty-seven years later, my son's turf operation is the only 
tillage being done on our farm. We are 100 percent no till for 
all of our crops. Our farm is always looking at problems and 
how we can adapt to make our soils better and improve 
production and profitability. We are farming sustainably. To 
quote Dick Waybright of Mason-Dixon Farms, ``Change is 
inevitable. Success is optional.''
    All across the country, corn growers are making important 
environmental gains through the use of farm bill conservation 
programs to reduce soil erosion, improve water quality and 
increase wildlife habitats. To continue this trend, we need 
even greater emphasis on working land's conservation programs. 
We believe the conservation title should be adequately funded, 
environmentally sound based on sound science, implemented 
nationally at the watershed level, performance driven, 
simplified and streamlined to encourage more participation, and 
targeted so that programs achieve greatest environmental 
savings.
    As you prepare farm bill legislation, we hope you are 
mindful of the NRCS delivery system and its limitations. Every 
farm bill since 1985 has fundamentally changed or added new 
programs. This has pushed the NRCS system beyond its limits. We 
commend Congress for providing a strong emphasis on 
conservation in the recent farm bills, especially on working 
lands. However, the 2002 Farm Bill was the most significant in 
this regard in terms of complexity. After several years of 
working through the kinks, we now have a good set of programs 
that work on the ground. Instead of extensive additions or 
complications, we encourage the committee to simplify and 
streamline existing programs.
    With respect to specific programs, Environmental Quality 
Incentives Program is very popular and delivers effective 
conservation program dollars to assist landowners who face 
natural resource challenges on their land. Above all, EQIP 
should preserve the full flexibility needed to adjust the 
program over time to focus on evolving issues and to be based 
on national, state and local needs.
    The Conservation Security Program continues to be a work in 
progress. Since its enactment, numerous legislative actions of 
the CSP statute have resulted in funding cuts, creating a range 
of implementation challenges. As a result, a number of corn 
growers have expressed frustration with the program, describing 
it as a moving target. Significant improvement is needed to the 
application selection implementation process and fairly applied 
to all eligible growers.
    The Conservation Reserve Program is an important and well-
used conservation program for corn growers. NCGA supports the 
full utilization of CRP at its authorized level. However, if 
market forces indicate diversion from CRP, we encourage fragile 
acres remain in the program and best management practices be 
implemented on land returning to production.
    In closing, each of the conservation programs utilized by 
corn growers could benefit from more funding to increase 
efficiency, enrollment opportunities, and environmental gains. 
Any increase in funding should not come at the expense of the 
farm safety net. We recommend that the farm safety net be 
enhanced with conservation programs but not replaced by 
conservation programs.
    Thank you for this opportunity to testify. I will be happy 
to answer any questions.
    Mr. Holden. Thank you, Mr. Jamison.
    Mr. Elworth.

 STATEMENT OF LAWRENCE ELWORTH, EXECUTIVE DIRECTOR, CENTER FOR 
      AGRICULTURAL PARTNERSHIPS, ASHEVILLE, NORTH CAROLINA

    Mr. Elworth. Thank you, Mr. Chairman and members of the 
committee for the opportunity to talk with you this afternoon 
about some of the challenges specialty crop producers face in 
making use of conservation programs. My name is Larry Elworth. 
I am executive director of the Center for Agricultural 
Partnerships. We are a nonprofit organization based in western 
North Carolina. Since 2002, my organization has worked in 11 
states with more than a dozen commodities to create more 
meaningful access for specialty crop producers and other 
farmers who by and large have not previously participated in 
conservation programs and that includes small farmers, limited 
resource and minority farmers as well.
    There are a number of challenges that limit the ability of 
those growers to participate in programs like EQIP. There is a 
profound lack of knowledge among growers about the programs and 
how to use them. There is a lack of appropriate program 
opportunities suited to specialty crop production and there is 
an overall lack of capacity to deliver these programs to 
specialty crop producers. In the course of our work, we have 
identified several measures that would significantly improve 
their ability to participate in conservation programs and I 
would like to at least take a moment to outline those ideas for 
you now.
    First of all, USDA needs to take leadership in creating a 
higher profile for specialty crop issues so that innovative 
ways of increasing access for specialty crop producers will be 
encouraged. One important step in that process would be to 
conduct an assessment of the problems that currently limit 
specialty crop participation and to engage NRCS staff with 
specialty crop organizations to develop a plan for addressing 
them.
    In addition, USDA needs to create and support more-
effective means for providing outreach and education for 
specialty crop growers. This would help growers become better 
informed customers for the programs and ensure that they can 
also effectively use the program opportunities. The outreach 
and education programs could be established through a specific 
mandate in the Conservation Innovation Grants Program, through 
cooperative agreements and partnership provisions, or through a 
conservation education program that could be established in the 
research title.
    Of particular importance is providing direction in the farm 
bill for USDA to develop and support more-effective technical 
assistance options for specialty crop producers. Such 
provisions would provide guidance for USDA to use mechanisms 
such as cooperative agreements and partnerships with public and 
private organizations to provide the necessary technical 
assistance. This is especially important for specialty crop 
producers since the technical service provider provisions have 
proven to be wholly inadequate for their purposes. In addition, 
the percentage of EQIP funds allocated to technical assistance 
could conceivably be increased in states that are working 
extensively with specialty crop producers.
    And finally, Mr. Chairman, USDA needs to work with Congress 
to ensure that there are adequate resources for conservation 
planning with specialty crop producers. In addition to 
providing sufficient funds for conservation technical 
assistance, provisions could be included in the farm bill that 
would allow the existing cost share and incentive payments 
under EQIP to provide for the development of plans for specific 
practices such as best management.
    At the heart of these ideas is the recognition that even in 
the age of computers and websites, conservation programs are 
still delivered one-on-one by people on the ground. Working 
with farmers who are new to these conservation programs makes 
that effort even more labor-intensive. These measures would: 
help increase our capacity to deliver conservation programs, 
benefit an important and progressive segment of agriculture, 
create significant resource benefits, ensure more equitable 
access to federal conservation programs. Furthermore, these 
measures would have relevance to other groups of farmers who 
have been underserved by conservation programs as well.
    Thank you again, Mr. Chairman, for the opportunity to 
testify this afternoon and for your leadership on conservation 
issues. I look forward to working with you and members of the 
subcommittee in addressing these issues, and I will be glad to 
answer any questions you have.
    Mr. Holden. Thank you, Mr. Elworth.
    Mr. Nelsen.

STATEMENT OF JOEL NELSEN, PRESIDENT, CALIFORNIA CITRUS MUTUAL, 
                       EXETER, CALIFORNIA

    Mr. Nelsen. Thank you, Mr. Chairman, members of the 
subcommittee. Again, my name is Joel Nelsen and I am president 
of California Citrus Mutual, a citrus producers' trade 
association located in California. Our membership is 2,000 
growers farming in excess of 120,000 acres of fresh citrus. Our 
industry produces approximately $1.3 billion of commodities and 
we are the number one ranked fresh citrus-producing State in 
the Nation.
    Today my testimony is on the conservation title of the 
upcoming farm bill. There is not too much history to speak of 
inasmuch as citrus growers and members of the specialty crop 
industry in general have little to say about this title. We 
just don't access it. Like so much of previous farm bills, we 
simply have not been able to work within this program and those 
aspects of this program that allegedly exist for commodities 
such as ours.
    I would like to note that the specialty crop growers 
produce approximately 50 percent of the farm gate value of 
total agricultural production in the United States. Our share 
of farm bill activities, one more time, is very small. We will 
make an effort to change that in the 2007 Farm Bill. I believe 
strongly that the allocation of resources aimed at addressing 
issues of concern to specialty crop producers must reflect the 
value of their production to our economy as well as the dietary 
needs of our Nation. We look forward to working with the 
members of this committee, Congress, and the entire 
agricultural community in writing such a vehicle.
    You may be aware that our collective industry has formed 
the Specialty Crop Farm Bill Alliance in an effort to be more 
active and therefore make the farm bill more productive for our 
industry. We have no choice but to be engaged and try to make 
our farm policy via the farm bill more balanced. In the past it 
has been too narrow in its outreach to agriculture across the 
Nation. That must change. Today competition from around the 
globe and from Governments around the world mirror our farm 
policy. That mirror, however, is for commodities produced in 
their respective countries, all commodities, unlike our farm 
bill policy, which favors a few.
    To some extent, that has been our fault. We have avoided 
entanglement with the Government as we move fresh fruit and 
vegetables around the globe but now industries such as mine are 
faced with global competition that is unfair, and a changing 
societal perspective on how best to make our nutritious 
commodities viable for the consumers. Again, our industry 
presently accesses very little from the previous farm bill but 
our competition in Spain, for example, realizes $1 billion in 
direct subsidies.
    The formula for access, the smaller pool accessible and the 
number of subscribers all preclude the ability of an industry 
such as ours to participate adequately in this program. This 
program is a good program, ladies and gentlemen, and requires 
more support from Congress. We wholly support EQIP in the 
conservation title. We believe in the expansion of the EQIP 
program. The existing program is oversubscribed and a majority 
of the funds are mandated for one segment of agriculture. If 
there are to be mandates, then they should be based on USDA's 
nutrition pyramid or the percentage of revenue contributed to 
the entire value of agriculture.
    With a better-funded EQIP program, we can reward higher 
levels of environmental performance, address local, state and 
national environmental priorities, and utilize the most 
efficient and cost-effective methods for producing fresh fruits 
and vegetables in a more environmentally sensitive manner.
    We believe resources of concern such as water quality and 
air quality should be prioritized for consideration. To that 
end, a specific air quality program must be established within 
EQIP. Much like the Administration's farm bill proposal places 
a priority on water quality, at EQIP, priority should be 
applied to air.
    If we do this, then we must do one more thing, and it, like 
EQIP, is priority number one. Congress and USDA must recognize 
that the economics of specialty crop farming are entirely 
different than other aspects of agriculture. The adjusted gross 
income calculations and limitations either eliminate our 
industry from participation or reduce the value so as to make 
the effort less than worthwhile.
    Next, the whole area of technical assistance needs great 
support in this title. Research leads to new and better ideas. 
The cost of implementation and /or acquiring the knowledge to 
implement is often left unsaid. Technical assistance can 
contain incentives to spread the knowledge and educate the end 
user, thus achieving the objective in a more timely manner.
    The Emergency Conservation Program can be extremely 
valuable for a producer as they recover from a disaster. 
However, it too is limited in its application.
    We will be suggesting new initiatives such as expansion of 
this whole title for the integrated pest management activities. 
Our industry has always been at the forefront of this type of 
pest management program but other commodities haven't had the 
luxury to be engaged in this more environmentally sensitive 
matter. More support and more flexibility to benefit all 
producers is necessary. Therefore, the expansion of the 
Conservation Innovation Grant Program is something we will 
support.
    Now, as a native Californian and proud member of the 
specialty crop industry, I must remind you that 4,000 of our 
State's landowners are rejected when they apply to take part in 
USDA's incentive programs. This represents 68 percent of our 
farm families. Our State ranks 28th in conservation title 
funding. Obviously it is not from a lack of applications. I 
guess I can't say it any better than Secretary Johanns did on 
November 2, 2005. ``Currently, program crops represent a 
quarter of production value yet they receive virtually all the 
funding. Ninety-two percent of the program spending was paid on 
crops. The farmers who raised the other crops, 2/3 of all 
farmers, receive little support from current farm programs.''
    That says it all. We desire a more balanced farm bill and 
farm policy. In conjunction with Congressman Dennis Cardoza, 
and members of this committee such as Congressmen Salazar, 
Costa and McCarthy, we have introduced H.R. 1600 to spotlight 
the issues that we think need to be implemented within the 
conservation title and the entire farm bill.
    I thank you for your time and attention and look forward to 
any questions you may have.
    Mr. Holden. Thank you, Mr. Nelsen.
    Mr. Foglesong.

    STATEMENT OF STEVE FOGLESONG, NATIONAL CATTLEMEN'S BEEF 
                 ASSOCIATION, ASTORIA, ILLINOIS

    Mr. Foglesong. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to come here. Trust me, 
it is the highlight of my mother's week, so she thanks you as 
well. My name is Steve Foglesong. I am a cattle producer from 
Astoria, Illinois. I am the policy division chair for the 
National Cattlemen's Beef Association.
    Cattlemen are true environmentalists. Generation after 
generation, we have been stewards of our Nation's land and 
resources. Our livelihood is made on the land and so being good 
stewards of the land not only makes good environmental sense, 
it is fundamental for our industry to remain strong. Some of 
the cattle industry's biggest challenges and threats come from 
the loss of natural resources. Our industry is threatened every 
day by urban encroachment, natural disasters, misinterpretation 
and misapplication of environmental laws. The conservation of 
our Nation's natural resources is imperative and cattle 
producers have a vested interest in keeping the land healthy 
and productive, keeping water and air clean, keeping wildlife 
abundant and keeping ecosystems diverse. We strive to operate 
in an environmentally friendly manner, and it is through the 
conservation programs in the farm bill that we achieve a 
partnership with the Government to reach these goals.
    NCBA is a strong supporter of working lands programs within 
the conservation title of the farm bill. This includes EQIP, 
the Environmental Quality Incentive Program--I hate acronyms so 
I have to read them out for you--the Wildlife Habitat Incentive 
Program, or the WHIP program, Conservation Security Program, 
CSP, and the Grasslands Reserve Program, GRP. The goal of 
conservation programs should be to maintain a balance between 
keeping well-managed working lands in production and providing 
for the conservation and enhancement of both plant and animal 
species and our natural resources. Given the limited resources 
that are available, NCBA would like to see overlap and 
redundancy in programs eliminated and the efficient use of 
scarce program dollars improved. Consolidation and streamlining 
as suggested in the Administration's farm bill proposal is one 
way to achieve that. We are happy to work with the subcommittee 
to make sure that any streamlining or consolidation continues 
to serve cattle producers.
    The most popular program among the cattlemen is the EQIP 
program. In the 2002 Farm Bill, EQIP saw a large increase in 
funding. Even with that increase, there still remains a 
substantial backlog of applications for the program. NCBA 
supports increased funding for EQIP within the conservation 
title so that the program is able to provide more producers 
with financial assistance as they work to implement good 
conservation practices and projects. Livestock production 
happens largely without the benefit of a safety net like many 
commodity programs have. Environmental concern is one of the 
biggest threats to our industry. That said, NCBA supports the 
continuation of the provisions in the 2002 Farm Bill that 
devote 60 percent of EQIP funds to livestock. Although popular, 
EQIP has a few problems we would like to see addressed in the 
upcoming farm bill. I have detailed these problems more 
thoroughly in my written testimony.
    Cattle producers across the country participate in EQIP but 
the practice of arbitrarily setting numerical caps that render 
some producers eligible and others ineligible limits its 
success. Addressing environmental solutions is not a large-
versus-small issue. All producers have the responsibility to 
take care of the environment and their land and should have the 
ability to participate in programs that assist them in 
establishing and reaching achievable environmental goals. 
Accordingly, all producers should be afforded equal access to 
cost share dollars under programs like EQIP or other 
conservation programs intended for working lands.
    Another category of livestock producers excluded from USDA 
by the EQIP program are custom feeders. USDA has decided that 
these producers do not share the risk of ultimate sale price of 
the animals that they feed and this exclusion for us is hard to 
comprehend. These producers feed livestock on behalf of others 
and are obviously agricultural operations. Their environmental 
profile is identical to every other feeding operation. They 
certainly share the risk of financial success on their 
operations even if not for the ultimate price of the individual 
animals that they sell. We urge the subcommittee to support 
changes in law to eliminate USDA's exclusion of custom feeders 
from EQIP.
    Yet another sector of our industry that is excluded from 
USDA from qualifying for EQIP is livestock markets. The vast 
majority of livestock move through these markets where they are 
held until they are bought or sold. Livestock markets are 
regulated by the Environmental Protection Agency as CAFOSs, 
Concentrated Animal Feeding Operations, and thus are held to 
the same high environmental standards as other cattle feeding 
operations. Livestock markets share similar resource concerns 
with other livestock feeding operations and should be eligible 
for Government assistance to address these concerns in the form 
of EQIP.
    The Grassland Reserve Program new in the 2002 Farm Bill 
proved to be hugely popular but very unworkable for many 
producers. NCBA supports continued funding for the GRP program 
to help conserve our Nation's working grasslands but there must 
be changes to the program. Unfortunately, many ranchers are 
skeptical of participating in GRP because they simply don't 
trust the Government. To solve this problem, the 2007 Farm Bill 
should give USDA more flexibility to allow private land trusts 
to hold and negotiate the terms of GRP easements.
    When it comes to the implementation of USDA's conservation 
programs, it is imperative that we ensure adequate support and 
technical assistance to make these programs successful. 
Resources must be allocated to maintain adequate NRCS personnel 
at the local level to provide the technical assistance 
necessary to implement successful rangeland conservation 
programs. Ranchers need a dependable and qualified recognized 
source of technical assistance in order to meet rangeland 
conservation needs. USDA's conservation programs are a great 
asset to cattle producers. We want to see them continued and 
refined to make them more producer-friendly in delivering the 
programs and resources to the local NRCS personnel and the 
cattlemen they work with to get to these practices on the 
ground to enhance the environment and the species of plants and 
animals that live there. NCBA looks forward to working with the 
subcommittee to ensure any revisions to the conservation 
program to continue to serve the needs of the cattle producers 
across the country.
    Thank you for this opportunity. I would love to have the 
opportunity to discuss and answer questions with you later.
    Mr. Holden. Thank you, Mr. Foglesong.
    Mr. Wolf.

 STATEMENT OF DOUGLAS WOLF, WOLF L&G FARMS, LLC, ON BEHALF OF 
   THE NATIONAL PORK PRODUCERS COUNCIL, LANCASTER, WISCONSIN

    Mr. Wolf. Good afternoon, Chairman Holden, Ranking Member 
Lucas and members of the subcommittee. My name is Doug Wolf and 
I am a pork producer from Lancaster, Wisconsin, and I am 
testifying today on behalf of the National Pork Producers 
Council. Like most everyone in agriculture, I have always taken 
responsibility to conserve and protect natural environment 
seriously, participating in many USDA and Wisconsin 
conservation programs.
    The challenges pork faces in 2002 remain with us today. We 
are still waiting for EPA's CAFO rule, due out this summer. A 
new issue which we just commenced a major study on is the 
management of air emissions from livestock operations. 
Together, pork expects to continue its needs for conservation 
assistance under the 2007 Farm Bill.
    Because there is a limit to the number of changes NRCS can 
manage, NPPC encourages Congress to continue USDA current 
conservation programs in the 2007 Farm Bill. However, this 
doesn't mean we are satisfied with EQIP's performance. Nothing 
could be further from the truth. Pork has received a paltry 
three percent of the total financial assistance funds made 
available by EQIP over the last few years. This is less than 
the share received by goats, emus and ostriches, and we are 
deeply disappointed. We believe that modest refinement with 
little or no cost can provide improvements needed. First, 
EQIP's funding and emphasis on helping producers address 
regulatory requirements must be maintained. One improvement to 
consider is support for producers wanting to purchase 
individual tools on an a la carte basis for an existing 
environmental management system. These include things like GPS 
units, flow meters and injectors to help better manage manure 
and its energy value. It should also include installation of 
bio filters to improve air quality and lagoon covers to reduce 
greenhouse gas emissions. Right now instead of appreciating the 
cost-effective benefits these practices bring, producers are 
subject to a full EQIP evaluation and penalized for previous 
conservation investments.
    Congress should also help NRCS develop at the state level 
separate funding pools so that producers are evaluated fairly. 
For example, AFOs should be in one category, row crops in 
another, and specialty crops in another. Frankly, it makes no 
sense for a hog farmer to be evaluated against a peanut farmer. 
This is comparing apples to oranges. The program also needs to 
be streamlined. One way is by recognizing the CAFO's state, 
federal water quality permits is equivalent to an EQIP plan. 
Finally, NRCS should continue to allow producers to use EQIP 
funds for the development of CNMPs, comprehensive nutrient 
management plans.
    Regarding the Conservation Security Plan, I cannot 
emphasize enough the need to develop a program that is 
legitimately national in scope. Second, the program needs to be 
simplified so that both the agency and the farmer understands 
what it requires. It also needs to be more transparent for all 
involved. One way to make the program more practical is to tie 
payments to what it actually costs producers to adopt and 
maintain practices. At the same time, you need to reduce the 
number of tiers from 3 to 2. Finally, producers need more 
certainty and predictability in order to participate. We simply 
can't spend 80 hours on an application, wait an unknown time 
period and learn that there is no funding available for the 
program.
    NPPC continues to support the Conservation Reserve Program 
when it is focused on retiring lands of the highest 
environmental and conservation benefits. We have significant 
concerns with current CRP contracts that could be productively 
involved in food, fiber, and feed production while still 
conserving the associated soil, water and wildlife habitat. Not 
surprising, this concern is only exacerbated by the dramatic 
increase in demand for corn for grain ethanol. In order to meet 
the country's future energy independence objectives, we must be 
able to generate ethanol from cellulosic feedstocks. CRP 
contract holders should be allowed to harvest biomass crops 
such as switchgrass for energy production without the loss of 
rental payments, taking environmental considerations into 
account.
    Finally, considering the Nation's focus on energy 
independence, the 2007 Farm Bill needs to consider encouraging 
greater use of biofertilizers such as manure.
    Thank you, and we look forward to working with the 
committee, and I will answer any questions.
    Mr. Holden. Thank you, Mr. Wolf.
    Mr. Lail.

 STATEMENT OF SLADE LAIL, AMERICAN TREE FARM SYSTEM, PLUMBDENT 
                     FARMS, DULUTH, GEORGIA

    Mr. Lail. Hello, my name is Slade Lail. I am a dentist from 
Duluth, Georgia, and the owner of Plumbdent Farms. It is a 
midsized tree farm in middle Georgia. I am here today as a 
representative of the American Forest Foundation and the 
American Tree Farm System. This organization represents nearly 
90,000 family forest owners across the Nation. Overall, there 
are about 10 million family forest owners, over 600,000 alone 
in Georgia. Of these 600,000, at least in Georgia, we grow 
Georgia's highest valued crop and add about $23 billion to the 
State's economy yearly.
    Just as important as these financial figures are the 
environmental effects that our forests provide for us. The EPA 
estimates that 70 percent of the U.S. watersheds flow through 
private forest lands and most of the threatened watersheds all 
depend upon good forest stewardship to help protect drinking 
water. Forests obviously also provide wildlife habitat for 
endangered species and some of the most prized game species. 
About 75 percent of all hunters and anglers pursue their sport 
on private land and that is just part of the story.
    Markets for wood are shrinking and the value of our land is 
making it almost impossible to justify further investment in 
forestry. As many of you may know, a major change is occurring 
in forest ownership. Large timber companies are selling off 
property at a rather alarming rate. They are taking thousands 
of acres, breaking them up into 200-, 300-, 400-acre tracts and 
selling them to people like myself from urban areas. It is a 
great getaway, great hunting. The problem is, most people from 
the urban areas do not have the knowledge regarding how to 
properly manage these forests.
    For some owners of property such as this, the opportunity 
to earn a return on investment through development makes a lot 
of sense and that is a great thing for some people to do but 
many family forest owners want the opportunity to consider 
other choices to continue good forest stewardship and forest 
conservation and that is why I am here in front of you today.
    First of all, in many cases, we are already doing the right 
things. Forestry spending through EQIP totals about $20 to $25 
million annually. Congress and NRCS from the leadership to the 
state conservationists have done a lot to include forest owners 
in EQIP and other programs like WHIP. Specifically, on my 
property, I have used EQIP funding for controlled burning, 
obviously reducing undesirable tree species, helping the timber 
growth, also reducing fuel on the ground for spread of 
wildfires throughout the year, especially from now until the 
end of the summer, also water bar control for water erosion, 
helping to improve water quality. These are just a couple of 
things I have been able to utilize through EQIP.
    But many forest owners in most states have been unable to 
access this EQIP funding and other NRCS programs. It is mostly 
cultural, I understand. Obviously the NRCS was brought up from 
its infancy for a different reason for farmers and it is 
organized to do that and it does it very well. But there needs 
to be help for family forest owners as well to get in the door 
in every state so their conservation needs can be considered 
along with other rural landowners.
    The other part of the problem is of course money. I know 
there is not a lot to do what we need to do now and especially 
for what is coming down the pike.
    By assuring that all players, federal and state level, can 
come to the table and agree on a long-term strategy, we can 
identify the highest priority forest conservation needs and 
determine how and through which programs we can address them, 
set benchmarks for progress so we will know what works and what 
does not work, and whether we have accomplished the goals we 
have set for ourselves. Whether this is enacted through 
conservation title or a forestry title, comprehensive planning 
and transparent priority setting will benefit farmers as well 
as forest owners, whatever crop they grow.
    There is much more I could say about this, the need to 
generate renewable energy from the forests or the need to 
develop ecosystem markets from environmental products that we 
can't from chip and saw but I guess to summarize, I would like 
to say that the funding through EQIP needs to be open to all 
landowners and equitable disbursement of the funds as well. I 
don't believe this is something that should be seen as an us 
versus them, not about farm states versus urban, red, blue, 
commodity versus timber. I think it is something that we are 
all in this together. I think we all share the ultimate goal 
here to keep rural America vibrant, a vital and growing part of 
our economy, our environment and our natural life.
    Thank you.
    Mr. Holden. Thank you, Mr. Lail.
    The Chair will remind members that we anticipate having two 
votes in the near future and also that we will recognize 
members in order of seniority as long as they were here at the 
beginning of the hearing and after that according to their time 
of arrival. I know Mr. Costa, who has to chair another 
subcommittee, and Ms. Herseth Sandlin, who also just left to 
chair another subcommittee, do have questions that they are 
going to submit for the record. Particularly since Mr. Nelsen 
is from Mr. Costa's district. So we will make every 
accommodation that we can.
    Mr. Costa. He is, and we do appreciate his hard work and 
the effort of the citrus industry. I have some questions we 
will submit for the record. Thank you, Mr. Chairman.
    Mr. Holden. Without objection. And I thank our witnesses 
for their testimony today and I just want to follow up on 
Chairman Peterson's and Ranking Member Lucas's opening comments 
where they pretty articulately identified the problem that we 
are facing with this budget. My father used to say everybody 
wants to go to heaven but nobody wants to die, and that is sort 
of what we are looking at here as we try to build on what we 
did in the last farm bill which I think everyone was pretty 
proud of. I know I was, and Frank was chairman of the 
subcommittee at the time and he also was, so we want to do that 
but we are not sure what our final resources are going to be 
and all of you identified some programs that you very much like 
and have enjoyed over the last five years and have asked us to 
build on those.
    I would like to ask you, are there any areas that you can 
identify of conservation programs that have not worked as we 
face this pay-go situation where we might have to move money 
around within agriculture? I would open up for anyone on the 
panel to suggest some areas where maybe there should be a 
disinvestment as opposed to reinvestment. These are the 
questions we are going to have to face. Okay. That is what I 
thought the answer was going to be.
    Moving along, the EQIP program many of you if not all of 
you cited how important that is and how successful it has been, 
and we have been approach as we begin to write this farm bill 
to make some changes, a lot of what you suggested now, and I 
guess probably, because we can't ask every question of 
everyone. Maybe Mr. Elworth , Mr. Foglesong, and Mr. Nelsen, 
could address how you think the 60-40 split is going and how 
you think we should proceed in the future. I would be 
particularly interested, Mr. Nelsen, to hear what you have to 
say about specialty crops.
    Mr. Nelsen. Here we will have our first disagreement, no 
question about it. I don't believe the 60-40 split works. It is 
as simple as that. The California specialty crop industry has 
many challenges and pressures on it. Our contemporaries in 
Texas and Florida, who we have networked with on a continuous 
basis, they too express frustration about the inability to 
access that program in a sufficient dollar amount, let alone 
have a number of their applications approved for any dollar 
amount. The formulas for accessing it, the dollar values 
associated with it. It just doesn't work for the economics of 
the specialty crop industry. There is a mandated split on that 
program that does not benefit an industry of our scope and size 
across the country.
    The challenges that we are facing, particularly in 
California in our San Joaquin Valley, which is the number one 
agricultural area in the world, has to do with air and water 
quality. There are fewer acres in production but there are more 
challenges as more people inhabit it. Society wants us to 
change the method in which we do farming. In my particular 
case, if we are taking out a grove of citrus, which we have 
done, summer oranges as an example, there is no way to destroy 
it. We can't burn it. We can't have controlled burns. You can't 
chip it because our wood is not sufficient to do it. So we need 
the innovations through research, the technical assistance 
through this conservation title, and then finally, we need the 
ability through EQIP to start transitioning our farms and our 
equipment to access the equipment so we can chip a grove. 
Thirty-five thousand acres have been removed from the citrus 
industry in the last five years to satisfy consumer demand for 
certain commodities. That is piled-up wood, ladies and 
gentlemen, because we can't access the EQIP program to destroy 
that wood in a manner more efficient for what society wants us 
to do. I could go on and on but I think that answers your 
question to the degree we--EQIP has to be modified from our 
perspective. It has to be funded better from our perspective so 
that we across the country in the specialty crop industry can 
access it.
    Mr. Holden. Mr. Foglesong?
    Mr. Foglesong. Mr. Nelsen and I, even though we are sitting 
next to each other, probably are not going to agree. Being the 
cattle trader that I am, I was going for 75 percent.
    Mr. Holden. I was going to say, that was a meeting I had 
earlier this morning.
    Mr. Foglesong. You have got to go somewhere, but that is 
our perspective and I guess the reality, the way I look at it 
anyway, I view the EQIP program as the first thing that 
livestock producers really from a Government program 
perspective ever really got. My neighbors are all corn growers 
and I don't mean to be negative to anybody but they have beat a 
path back and forth to the mailbox for a long time to get that 
check and we are kind of in a different situation there. This 
was the first program where we really had the opportunity to 
participate in a Government program directly and we really like 
that and I am sure from the pork producers' perspective as 
well, and I am a pork producer as well as beef producer. So we 
really had an opportunity to do some stuff that we needed to do 
from an environmental perspective and we think 60-40 is as low 
as we want to go, but we will negotiate.
    Mr. Holden. Thank you.
    Mr. Elworth, would you like to add something?
    Mr. Elworth. Yes, just quickly, Mr. Chairman. We are 
nowhere near the point with specialty crop producers that we 
would even have to worry about the 40 percent. The 
participation has been very limited. NRCS is just now at a 
position where they can actually track specialty crop 
participation. So really, before we would want to address the 
60-40 split or any targeting of the money, we would really want 
to address the issues of access. Our growers don't know about 
these programs. We need to make sure our growers know about the 
programs and how to use them, how to access the technical 
assistance and actually have access to the ability to plan, 
know the programs well enough to apply correctly, to rank high 
enough and I only aspire to having a problem with the current 
allocation.
    Mr. Holden. Mr. Jamison, the Susquehanna River runs through 
the largest city in my district, the state capital of 
Pennsylvania, Harrisburg, so I obviously hear an awful lot 
about the problems in the Chesapeake Bay. As a producer in the 
region, I was just curious, do you believe that farmers are 
engaged in the policy of the cleanup? Do you believe you have 
been given the opportunity to have input into the proposals 
being put forth?
    Mr. Jamison. In Maryland, we are heavily engaged. As you 
are probably aware as in your State, we have a mandatory 
nutrient management plan and we have to participate and we have 
to be in compliance as do your producers and we have certain 
programs in this state that we implement. We have cover crop 
programs that we are using that have been funded by, as they 
call it in Maryland, the flush tax, imposed on sewage systems. 
So that is part of our cleanup as we sit here and take a look 
at it. As in your State, animal agriculture is extremely 
important to both our States. How do you take care of some of 
the manure situations that arise from that without getting into 
those various watersheds that go through your State and my 
State?
    Mr. Holden. Thank you.
    The Chair recognizes the ranking member, Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman, and since we have come 
out swinging, let us just keep going, guys.
    I will start with Mr. LaFleur and Mr. Jamison. Let us talk 
about CRP and the cap at 39 million acres, the approximately 37 
million acres in the program, and I most assuredly will come 
over to Mr. Foglesong and Mr. Wolf here in a moment. Your 
observations--and I realize you may not be in areas where CRP 
is a major player but nonetheless, on behalf of your groups, 
what do you think of the 39 million acres? Up, down, sideways?
    Mr. Jamison. It is our policy that we support the 
enrollment at its full capacity and we want it on the most 
sensitive, environmentally sensitive grounds, and not on the 
more productive grounds.
    Mr. LaFleur. Certainly you are right. I am not a CRP expert 
by any means, but NFU wants to see CRP lands stay certainly at 
that 39 million acres cap and also see the focus remain on the 
environmentally sensitive grounds. But also we want to see the 
fact that CRP acreage not certainly be utilized for feedstock 
production but develop markets for feedstock production so this 
way we don't develop a chicken-and-egg situation where we do 
have no market for--there is no market for--if there is a 
market, there is going to be feedstock production. If there is 
no market, then there won't be feedstock production. But we do 
want to see producers be able to produce switchgrass and such 
for feedstock.
    Mr. Lucas. Back for a moment to Mr. Jamison's point about 
sensitive acres. Do you both support the concept of allowing 
land perhaps that arrived in the '80s that might not be defined 
by the modern definition as environmentally sensitive as other 
lands, do you support the concept of those kind of productive 
acres coming out and making room then for land with a higher 
environmental sensitivity going in?
    Mr. Jamison. Personally, I think it has to be number one 
what this agency thinks, but also what the landowner wants to 
do to a point. They could come out if you have got better and 
you set the criterion for that, for more environmentally 
sensitive lands, and what are those, and obviously that is a 
debate on itself.
    Mr. Lucas. Mr. Foglesong, Mr. Wolf, if you would care to 
touch on this subject, I think you might have an interest in 
it.
    Mr. Wolf. Yes, we have worked on this for quite a while 
now, probably for over a year. Our opinion, if I can speak for 
the NPCC, is that we think the CRP ground is important but it 
has to be in a sensitive area as you had just asked. The ground 
that doesn't meet the sensitivity level needs to be taken back 
out. We need production of grains. Our biggest fear is the day 
that we can't feed our livestock, and the animal welfarists 
that we are, we want to make sure that we have enough feed to 
make sure our animals are well taken care of. So we have no 
problem with the 39 million acres but it needs to be the 
sensitive ground and not the good ground.
    Mr. Foglesong. From our perspective, looking at it strictly 
from an environmental standpoint, if those lands are sensitive, 
they need to stay in. From the cattle feeder perspective, I 
want to plant corn fencerow to fencerow, you know, whatever it 
takes, but the reality of it is, there is a balance in there 
that we need to meet, and if some of those lands that you 
mentioned before that were put in later that aren't as 
environmentally sensitive can come out and go back into 
production and make room for other land that didn't get the 
opportunity to get in there, we would be all about that.
    Mr. Lucas. Exactly, and I think that is a critical point. 
The 39 million acres is a number that I believe most of our 
colleagues in Congress will support. Certainly there are lands 
though that came in the '80s when it was more of an economic 
issue than an environmental issue that just perhaps 1, 2, maybe 
3 million acres that a good trade-out would be the appropriate 
thing to do. With you, Mr. Foglesong, discuss for a moment, 
expand if you would about the custom feeder and livestock 
market issue in EQIP.
    Mr. Foglesong. Okay. I wasn't involved with the original 
case on this but the problem is custom feeders don't 
necessarily take part in the risk of owning those cattle. You 
know, they feed them, they run a hotel and they get paid, you 
know, yardage and they take care of their feed bill but they 
actually don't own them. Very seldom though are there custom 
feed yards that don't own some of the cattle in that yard but 
because they are custom feeders, generally speaking--and part 
of the deal is, through the tax code, how they file their 
taxes. They don't necessarily file it as a Schedule F and that 
is probably from a corporate--I am not sure what all that is 
about. But because of the way they manage their business, they 
are excluded from the EQIP part of it. Somebody who is not a 
custom feeder right across the road that is feeding all their 
own cattle, owns a feed yard, he does qualify for it. You know, 
we have got the same environmental concerns regardless of how 
you get paid. It doesn't make any difference from that 
perspective. So our perspective is that we need to make sure we 
include those custom feeders because some of those are really, 
really large yards that have the opportunity and can certainly 
use that EQIP funding to take care of some of these 
environmental problems.
    Mr. Lucas. One last thought, Mr. Chairman, and my time is 
expired, but we have all talked about the merits of CSP and how 
we would all like to participate and make it available to 
everyone. Listening very carefully to Chairman Peterson's 
comments about the budget situation, he is trying, I think, to 
prepare all of us for a challenge that lies ahead of us in the 
next few weeks but in hearings last year in this very 
Subcommittee, we had very credible witnesses who pointed out in 
order to make CSP available to everybody, CSP to everybody, it 
would take $10 billion more a year. That is a lot of money and 
I am not sure where you could come up with that, even in the 
best of times let alone the challenges we face now.
    Thank you, Mr. Chairman.
    Mr. Holden. The chair thanks the Ranking Member and 
recognizes Mr. Kagen from Wisconsin.
    Mr. Kagen. Thank you, Mr. Chairman.
    Mr. Wolf, you have testified as others have about the 
difficulties in navigating the conservation programs and 
getting financial assistance, so what changes specifically 
should we create? How do we make it easier for you to access 
the money you are all seeking?
    Mr. Wolf. To me, I think it would be a streamlining, just a 
simpler application would work much better. Things get too 
complicated. They try and create--maybe is a sorting mechanism 
but I think they could just do things simpler, simplify the 
questionnaires.
    Mr. Kagen. One form will fit all?
    Mr. Wolf. I would think you could do that. I really do.
    Mr. Kagen. Speaking as an allergist, I have to encourage 
all of you to be more successful because I have seen patients 
allergic to cranberry, corn, citrus, beef, pork, and the trees 
produce enough pollen this time of year to stimulate 
fundraising for many a candidate.
    So Mr. Lail, about trees, should the Government consider 
redefining tree as an agricultural product?
    Mr. Lail. I don't know as far as an agricultural product 
but it is definitely a crop. It is a long-term crop. It is not 
a year-to-year crop. We are talking initially 15 years on up to 
35 years of age but yet it is one that has to be taken care of 
on a year-to-year basis. That is why we have our interest with 
EQIP in maintaining that forest as the tree timber grows.
    Mr. Kagen. We have a lot of forests in northern Wisconsin 
and most of the loggers and the mills are having a major 
economic problem right now, so how do you think this bill could 
help them?
    Mr. Lail. I don't know. I am not an expert on the subject. 
I wouldn't feel comfortable answering that.
    Mr. Kagen. Thank you very much.
    Mr. Nelsen, you mentioned fair trade. What can we do to 
help you get fair trade, balanced trade?
    Mr. Nelsen. Well, in our H.R. 1600, sir, we have addressed 
that rather extensively on how we can improve the farm bill to 
assist specialty crop producers as it relates to trade. But so 
many of the programs that we are speaking of today are being 
mirrored over and we know extensively about what is going on in 
Spain and in other countries, and in those countries, Spanish 
citrus farmers are getting greater assistance for their 
irrigation programs. The cost of underwriting low-volume 
irrigation is being underwritten by their Government. The fees 
associated with land transfers as generations change, that is 
being underwritten by the Government. The replacement of trees 
to more suitable varieties of citrus, take for example, our 
summer Valencia orange versus the Mandarin tangerine that you 
call it. That is being paid for by the Spanish Government in 
Spain. We are losing market share as a result of those costs 
being absorbed by their farm bill and those are direct out-of-
pocket expenses for us presently. So that is the type of 
activities that if we initiate through our farm bill the 
ability for us to remain competitive or become more 
competitive, then we can fight the battles in the marketplace, 
but our costs are so much greater than our competitors overseas 
through their farm bill programs, through their conservation 
title, that we are losing ground, sir.
    Mr. Kagen. You mentioned your expenses in your business and 
overhead, and being a small-businessperson, I understand what 
overhead really means. Would it be a fair statement that your 
health care expense and your energy expense are two of your 
largest expenses in all of your businesses?
    Mr. Nelsen. Oh, don't get me started there. Most 
definitely. Our health insurance rates and our employees, all 
14,000 of them, are covered by health insurance to some extent 
or another. We have a workers' comp program in California that 
we just got modified. Our energy costs are a major component 
both from nutrients and soil amendments to both moving the 
equipment in and out of the field and transporting, candidly, 
approximately 60 million cartons of product around the country. 
We do that every winter. Then there is another 40 million 
cartons of citrus during the summer, spring and fall that we 
move in addition to that. Energy costs are a major component of 
our problems.
    Mr. Kagen. Well, I am going to work real hard for all of 
you to try and reduce your health care costs. It is an unfair 
advantage for Europe and Central and South America where they 
don't even have it, so I will be working real hard, and I yield 
back my time.
    Thank you, Mr. Chairman.
    Mr. Holden. Thank you, Mr. Kagen.
    We still have about 12 minutes left in the vote, so Mr. 
Space.
    Mr. Space. Thank you, Mr. Chairman, and I will be brief, 
given the time constraints.
    I would like to thank you gentlemen for being here today. I 
come from southeastern Ohio, Ohio's 18th district, which is 
very diverse agriculturally. We have got beef cattle, dairy, 
hog, poultry, grain, fruit, just about all that the Midwest has 
to offer. Recently we did a tour, spoke with hundreds of 
farmers, so dozens of farms, and the overwhelming reaction to 
the conservation program has been positive but one of the 
things we tried to do was identify potential weaknesses and I 
think perhaps Mr. Foglesong, you might be the best person to 
answer this although feel free to jump in. One of the 
complaints that we received in our farm tours about the EQIP 
program was that the technical standards applicable to certain 
projects were such that it was more expensive even after 
consideration of cost sharing to apply for and receive and the 
funds than just to do it on their own. I had a couple of 
farmers, for example, that put in manure pads that were able to 
do so less expensively and not take advantage of the EQIP 
monies, and given our budgetary constraints that we have 
discussed and we are all aware of, I am just curious as to 
whether you feel that perhaps some of the plan of operations or 
the technical standards applicable to EQIP funds are especially 
onerous or could be modified to make those programs more 
affordable and attractive.
    Mr. Foglesong. Somebody fed you this question because it 
falls right into my--my personal experience with the EQIP 
program has been less than stellar. In a number of cases, it is 
a whole lot easier for you just to build your own deal and not 
take any of the cost-share dollars at the end of the day, and 
in Illinois we have got a deal called the Illinois Livestock 
Management Facilities Act that supersedes everything as far as 
the construction of buildings, uses engineering standards that 
have been scrutinized and the standards that we get from NRCS 
are higher than that and just continues to drive those costs up 
to the point where you are just better off not to do it, and 
that is probably the biggest issue that I personally have run 
into, that and faulty engineering and science on what this 
could cost. You know, there is nobody that is any better at 
delivering these programs and figuring out what he needs on his 
own place than the guy that is probably running it, and when we 
get into situations that we have gotten into as we are getting 
fed information, and I don't know where they have come up with, 
you know, what their standards are but they spend so darn much 
money, you can't afford to do the project. I will give you a 
quick example. We were supposed to put water tanks on a 1,200-
acre parcel that we have at my place. We are supposed to put 
them every 800 feet. Now, I got cows that walk miles. If you go 
west of the river very far, it is nothing for them to walk 2 
and 3 miles to get a drink of water, but in my State they 
wanted us to build them and, you know, we were going to spend 
$3,000 per site on all these. Terrible. It is a total waste and 
we walked away from it because it didn't make any sense to 
spend your money and mine, you know, on doing something that is 
totally ridiculous. Those are the kinds of things that really 
get us in a jam.
    I guess the other probably biggest problem with the EQIP 
program, cattle producers as a group deal on a very sound 
principle, you know, a deal is a deal, and if you shook hands 
on a deal, that is the way it is going to be, and the problem 
that we have, and what I would expect would be that same 
standard should be applied when I am dealing with my own 
government, and in a number of situations here, that has not 
been the standard. Those standards have changed or they changed 
the deal after the fact and that keeps an awful lot of cattle 
producers from wanting to do business with their own 
government.
    Mr. Space. Thank you, Mr. Foglesong.
    I yield back.
    Mr. Holden. Thank you, Mr. Space.
    Ms. Gillibrand, we have 10 minutes left in a vote so we 
have time to proceed if you would like to.
    Ms. Gillibrand. Sure. We had the opportunity to talk to the 
head of the agriculture for the President and talked about his 
proposal about what the President wanted to do and one of the 
things he talked about was the consolidation of a lot of these 
programs, of these conservation programs. What is your opinion 
of that consolidation suggestion made by the Department of 
Agriculture and what is your thoughts on whether that will be 
efficient or not? Because one of my big concerns is that we 
have such a tremendous backlog right now and I just think that 
may continue to affect that negative, so I would like your 
impressions and thoughts and guidance on that.
    Mr. Nelsen. Let me try that if I may. Presently, the 
Department of Agriculture is reorganizing its foreign 
agricultural service. This is a double-edged sword. The issue 
of reorganization and simplification sounds good and I think 
all of us as businesspeople would be supportive of that. It is 
the implementation of that effort that creates the problems. 
Right now the jury is still out whether or not shifting the 
boxes in the foreign agricultural services from 8 to 12 is more 
efficient. They argue it does. We are sitting here from our 
side of the spectrum suggesting let us wait and see. I want to 
believe what the Administration says and what the Secretary of 
Agriculture believes will truly come out and become a more 
efficient program, easier applications, quicker turnaround time 
in terms of the applications and the rewards but the 
implementation of it is a very critical component of that.
    Ms. Gillibrand. And when you talk about implementation, 
what are you exactly referring to? What would you like to see 
different in the current administration of these programs?
    Mr. Nelsen. I believe some of these programs, I won't say 
several because I am not familiar with them all but I believe 
some of these programs can be combined so that you can have one 
senior management and enough of an implementation team to 
actually work on more than one program at a time. We get so 
insulated in our efforts and job justification comes into play 
that we can reduce our overhead. These are smart people. They 
are well meaning people, they are well-intended people and they 
work hard but sometimes you do have to shake some things up. So 
from my perspective, we are supporting this effort. The 
specialty crop industry will support the efforts, Citrus Mutual 
will support the effort, but we are going to have to maintain 
our engagement as a stakeholder to see that no slippage occurs.
    Mr. LaFleur. Certainly from a producer's perspective, one 
of the complaints that I hear quite frequently is the fact that 
there are so many alphabet soups, different programs out there 
and some of them do overlap. I think that there is a need to 
try to consolidate some of them, and in particular, especially 
when we do have producers that are going forward on multiple 
programs, and in my testimony I mentioned the fact, the 
requirement of one conservation plan but we have had situations 
where a producer may be going in for, let us say EQIP and then 
also going in for CRP or such and they have to develop multiple 
plans for the same agency, so there is definitely opportunities 
in the management perspective to try to consolidate some of 
this and make it easier for the producers to understand and 
thus access and also reduce the workload for the staff in the 
field.
    Mr. Elworth. I would just add that producers are often not 
necessarily aware of what the acronym of the program is that 
they are using. They are much more concerned about the practice 
and the relationship on the ground but I think Jeff is right. 
It would certainly help staff at the field level to administer 
these programs. Sometimes they are juggling 2 or 3 different 
programs in the space of trying to meet the needs of a producer 
and they also really, because of the additional work for them, 
as do many things in this farm bill, makes it less likely they 
will get out in the field to actually see a farmer and his 
operation.
    Mr. Jamison. There will probably be some producers upset 
with it but the reality of life is, as the Chairman mentioned, 
Mr. Peterson mentioned, where is some of the money coming from 
and if it can be done where you can have multiple programs run 
by one set of individuals, I expect in the end, whether we like 
it or not, it is probably going be a reality of life being 
driven from a budget standpoint.
    Mr. Foglesong. One thought that I had, the local guys 
really do a really good job of being able to deliver those 
programs but sometimes they have so many programs that they are 
having a hard time grasping them, and they need a toolbox, and 
the bottom line on all these conservation programs is to get 
those practices delivered to the ground, you know, and if they 
jut have that toolbox and have the flexibility to work you in 
and out of different programs with different structures so you 
didn't have to spend so much time in the office doing a 
mountain of paperwork and actually deliver those programs, 
their 4-day workweek would be a lot more productive.
    Ms. Gillibrand. Thank you very much.
    Mr. Holden. The Chair thanks Ms. Gillibrand and thanks all 
of our witnesses for their testimony and their answers today. 
We are in the midst of four minutes left in a vote so we will 
dismiss the first panel and convene the second one as soon as 
we return from votes.
    [Recess]
    Mr. Holden. I would like to welcome our second panel: Mr. 
David E. Nomsen, Vice President of Government Affairs, 
Pheasants Forever and Quail Forever, on behalf of Agriculture 
and Wildlife Working Group and the American Wildlife 
Conservation Partners, Garfield; Minnesota; Mr. Ralph Grossi, 
President, American Farmland Trust, Washington, D.C.; Mr. Olin 
Sims, President, National Association of Conservation Districts 
from McFadden, Wyoming; Mr. Thomas W. Beauduy, Deputy Director 
and Counsel for the Susquehanna River Basin Commission and my 
landlord in Harrisburg, Pennsylvania; and Mr. Ken Cook, 
President, Environmental Working Group, Washington, D.C.; and 
Ms. Loni Kemp, Senior Policy Analyst, Minnesota Project, 
Canton. The chair would ask all witnesses if they could try to 
keep their comments to five minutes and reserve their entire 
statement for the record.
    Mr. Nomsen, you may begin.

 STATEMENT OF DAVID E. NOMSEN, VICE PRESIDENT OF GOVERNMENTAL 
  AFFAIRS, PHEASANTS FOREVER AND QUAIL FOREVER, ON BEHALF OF 
    AGRICULTURE AND WILDLIFE WORKING GROUP AND THE AMERICAN 
      WILDLIFE CONSERVATION PARTNERS, GARFIELD, MINNESOTA

    Mr. Nomsen. Thank you, Mr. Chairman. Members of the 
Committee, my name is Dave Nomsen. I am from Garfield, 
Minnesota. In my role at Pheasants Forever, I serve as co-chair 
for the Theodore Roosevelt Conservation Partnership's 
Agriculture and Wildlife Working Group. As if we don't have 
enough acronyms for all of our great programs, I am going to 
add a couple of new ones for you here in the next moment or 
two, the AWWG partnership. I also serve as the vice chair of 
the American Wildlife Conservation Partners, basically a 
coalition of basically all of our Nation's hunting and fishing 
and sporting organizations, and I am excited to talk to you 
today about some common priorities that all of the members of 
these two coalitions have concurred upon.
    It has been a long process. It has been a couple of years 
in the works but through the Agriculture and Wildlife Working 
Group, there is about 16 organizations in that particular 
coalition, hunting and fishing groups and conservation 
organizations, national land protection organizations and 
others, and we went through a process of taking input from 
farmers and landowners, from foresters, from Department of 
Agriculture personnel, Congressional staff, resource 
professionals at state and federal agencies, and the results of 
that effort are published in a document entitled ``Growing 
Conservation in the Farm Bill.'' The American Wildlife 
Conservation Partners, as I mentioned, is a large coalition of 
conservation and hunting organizations. There is about 41 total 
members of that particular coalition and I am excited to tell 
you today that 36 AWCP member organizations have signed on to 
these same priorities that I am going to briefly review in just 
a moment.
    Please let me add that having done several farm bills, and 
I am really pleased to be here before you today representing 
not only the most comprehensive array of conservation 
priorities offered by this group but it is supported by the 
largest coalition of groups that I have ever had a chance to 
testify for here on farm bill conservation programs.
    I am not going to review each of the priorities. Certainly 
you can look through those in my testimony. But our priorities 
are built upon a number of proven successful programs. I am 
talking about things like CRP and WRP, the Grasslands Reserve 
Program that has had tremendous interest and has a huge 
backlog, the Wildlife Incentives Program. We talk about a new 
program for access. Many members of our particular 
organizations are concerned about access to lands for 
recreational opportunities, hunting and fishing and that type 
of thing, and we see that as an opportunity to not only provide 
access but also to do management for fish and wildlife 
resources on those same acres at the same time. We have 
recommendations regarding the Conservation Security Program, 
the Farm and Ranchland Protection Programs. We talk about 
biofuels and how it may or may not fit with conservation and 
offer some guidance on how to do conservation-friendly 
biofuels, especially cellulosic renewable biofuels programs. We 
talk about a new provision to help save threatened remnant 
prairies, especially mid-grass and short-grass prairies that 
are being converted at an alarming rate, and we also address 
that in our testimony.
    So let me conclude by just saying on behalf of these 
literally tens of millions of members of our organizations and 
others that we thank you for the opportunity to testify here 
today. We certainly look forward to building upon the successes 
of the 2002 Farm Bill, a very comprehensive array of programs, 
some new programs, and we certainly think that is our challenge 
to do that once again and we look forward to working with you 
in that process. Thank you very much.
    Mr. Holden. Thank you.
    Mr. Grossi.

STATEMENT OF RALPH GROSSI, PRESIDENT, AMERICAN FARMLAND TRUST, 
                        WASHINGTON, DC.

    Mr. Grossi. Thank you, Mr. Chairman, members of the 
Committee. My name is Ralph Grossi. I am a third-generation 
dairy and beef producer from north California but I am here 
today in my capacity as President of American Farmland Trust, a 
position I have held for 22 years.
    The farm bill's incentive-based conservation programs are 
critical to cleaner water, improved air quality, expanded 
wildlife habitat and the protection of land for future 
generations. We have some proposals and improvement that I 
would like to review for you.
    The first is to increase an investment in environmental 
quality. You have heard here about the thousands of farmers who 
are turned away each year for a lack of funding in the 
conservation programs but increasingly many farmers are simply 
not bothering to apply for conservation programs due to the 
lack of funds and the confusing and often redundant application 
process. The Nation must do better in matching financial 
commitment with this high level of interest among farmers. This 
is especially critical as we enter an era of intensifying 
pressure on productive farmland due to the growing renewable 
fuels industry. As more producers forego their traditional 
corn-soy rotations and as marginal lands are brought into rural 
crop production, increased soil erosion along with additional 
fertilizers and other nutrients can be expected. While we are 
pleased to see farmers have this new economic opportunity, 
increases in working lands conservation funds are needed to 
mitigate the negative environment consequences of this 
expansion. Specifically, we urge you to increase the authorized 
funding for the Environment Quality Incentives Program.
    Secondly, we think there are ways to improve the 
effectiveness of cooperative conservation. To improve on the 
current a la carte approach to conservation, a competitive 
grants program should be established to promote multi-producer 
collaborative conservation efforts. Cooperative conservation 
partnerships will improve the effectiveness of existing 
conservation programs by focusing conservation implementation 
and by attaining critical mass.
    Thirdly, increased conservation by leveraging dollars. The 
2007 Farm Bill should create a conservation loan guarantee 
program to help farmers and ranchers finance conservation 
measures on their lands. This new program would fill a void in 
the current system for farmers unable to qualify for cost-share 
assistance whether because of the lack of cost-sharing dollars, 
different needs compared to the current year's conservation 
priorities or because the producer exceeds cost-share caps. A 
loan guarantee program would also help producers amortize their 
share of conservation system costs if some cost-share became 
available at a later date. This is particularly helpful to 
socially disadvantaged farmers. Government-guaranteed private-
sector loans with a reduced interest rate for producer 
borrowers would provide a highly leveraged way for federal 
dollars to boost implementation of conservation practices. 
Specifically, we have proposed that USDA be given the authority 
to guarantee up to $1 billion of loans with additionally 
authority to buy down the effective interest rate to qualified 
buyers.
    The fourth recommendation is of course the Farm and 
Ranchland Protection Program. This is a critical program to 
helping preserve working farms and ranches across the country 
in the face of increasing urban pressure. A growing web of 
bureaucrat rules and regulations has beset this program, making 
it difficult for some state and local programs to utilize 
available funds. The 2007 Farm Bill should eliminate 
duplicative requirements and streamline the program to make it 
more responsive to the many diverse Farm and Ranchland 
Protection Programs at the state and local level. Specifically, 
reforms to FRPP would allow those state and local programs with 
proven track records of success in protecting farms and ranches 
to receive funding in the form of grants. They should also be 
given the authority to use their own well-established 
procedures and policies in the execution of their projects.
    Another important issue is the Farmland Protection Policy 
Act. Passed in 1981 as part of the 1981 Farm Bill, it was 
landmark legislation. Unfortunately, the application of the law 
has fallen short of what was originally envisioned. federal 
projects and actions have contributed to the direct and 
indirect conversion of valuable and irreplaceable agricultural 
lands across the country. We should reform the FPPA to 
strengthen its original intent and make sure that the impacts 
of federal actions on agricultural lands are adequately 
addressed in the planning and assessment process.
    And finally, we urge you to strengthen stewardship rewards 
programs for all farmers and ranchers. In 2002, our Nation 
committed to a new vision of farm support, a way to support 
those farmers who are good stewards of the land and who inspire 
others to reach higher levels of environmental performance. I 
am of course talking about the Conservation Security Program. 
During the course of the last five years, this program has 
unfortunately not fulfilled its promise. I believe, however, 
that the concept of a rewards program is valid and has very 
broad support among farmers and the general American public. I 
urge the Committee to again examine the ideals behind CSP, 
recommit to needed funding and find a more workable green 
payments program as an additional stream of income to reward 
producers for their stewardship of our Nation's natural 
resources.
    Thank you, Mr. Chairman.
    Mr. Holden. Thank you, Mr. Grossi.
    Mr. Sims.

  STATEMENT OF OLIN SIMS, PRESIDENT, NATIONAL ASSOCIATION OF 
           CONSERVATION DISTRICTS, McFADDEN, WYOMING

    Mr. Sims. Mr. Chairman, Mr. Lucas, distinguished members of 
the Committee, good afternoon. My name is Olin Sims. I am 
president of the National Association of Conservation 
Districts, known as NACD, another acronym for us to work with, 
and a rancher from McFadden, Wyoming. On my family operation, 
we run a 700 cow-calf operation on 22,000 acres of deeded 
private state and federal leases in southern Wyoming.
    Across the United States, nearly 3,000 conservation 
districts are helping local people to conserve land, water, 
forests, wildlife and related natural resources. NACD believes 
that every acre counts in the adoption of conservation 
practices. We support voluntary incentive-based programs that 
provide a range of options, providing both financial and 
technical assistance to guide landowners in the adoption of 
conservation practices.
    The 2002 Farm Bill assisted producers across the country, 
but in my area, the conservation programs are the farm bill. My 
access to farm bill programs and assistance has been limited to 
conservation programs and I am happy to have had the 
opportunity to participate in several of the program.
    This past fall our ranch installed two miles of stock water 
pipeline and tanks that allowed us to alleviate impacts to 
riparian areas, control invasive species and better manage our 
rangeland resources to alleviate the chance of overgrazing. 
This was all done working with my local conservation district 
and the NRCS that provided the technical assistance prior to 
entering into an EQIP contract.
    We are currently working with the Wyoming Game and Fish 
Department to use livestock grazing as a land treatment for elk 
habitat enhancement on a nearby wildlife habitat unit. The 
project has allowed us to demonstrate the beneficial importance 
of livestock grazing as a management tool to improve wildlife 
habitat by incorporating the abilities of private landowners in 
managing public resources.
    The comments on the conservation title of the farm bill 
that I provide to you today are based on recommendations 
approved by our board of directors which includes one member 
from all 50 states in the U.S. Conservation districts have a 
unique role in conservation program delivery. Our members and 
conservation district employees work with landowners, federal 
and state agencies to deliver programs, technical assistance, 
and guide local decision-making. We listen to our customers 
regarding program implementation. NACD's recommendations focus 
on a priority for working lands conservation programs.
    We believe there should be consolidation and/ or 
streamlining of programs to ease program delivery, making them 
easier for producers to understand and apply for and easier for 
field staff to administer. All working ag lands should be 
eligible for these programs including non-industrial private 
forest land, fruits and vegetables, livestock row crop and 
small production lands that may border urban areas.
    To this end, we recommend two working lands conservation 
programs, a modified EQIP program and a streamlined CSP 
program. NACD recommends combining the programmatic functions 
of the cost-share programs of the WHIP program, the Forest Land 
Enhancement Program and the Ag Management Assistance Program 
and the working lands components of the Grassland Reserve 
Program into an enhanced EQIP program.
    The existing CSP program should be modified into a top-
level conservation program for the best of the best in natural 
resource protection on their operation. This upper-level 
program should have clearly defined criteria so producers can 
plan ahead, know what the requirements are to participate and 
should be available nationwide.
    NACD supports maintaining the two land retirement programs, 
the Conservation Reserve Program and the Wetlands Reserve 
Program. The CRP program should continue to focus on special 
initiatives, continuous sign-ups and CREPs. CREPs have been 
very successful in leveraging state dollars for additional 
natural resource protection.
    The WRP program has been successful in the restoration of 
wetlands, improving water quality and wildlife habitat.
    NACD supports retaining the Farm and Ranch Lands Protection 
Program and including elements of the Healthy Forests Reserve 
Program. The FRLPP has been very successful in the Northeast 
and we need to continue to ensure that this program works in 
other parts of the countries, includes forest lands and works 
in coordination with state programs.
    We also support reauthorization of the Watershed 
Rehabilitation Program, the Great Lakes Basin Program and 
continued authorization of the RCND counsels.
    The Conservation Technical Assistance Program outside the 
authorization of the farm bill allows NRCS offices at the local 
level to work with conservation districts, landowners and state 
and local agencies to address local resource concerns. CTA 
assists in farm bill conservation program delivery by working 
with landowners and operators up until the point which they 
commit to a farm bill program. Technical assistance is utilized 
once again in the plans for program design, layout and 
implementation. CTA is also critical to working with landowners 
and operators that may have smaller operations and may not be 
typical USDA program customers and need added assistance to 
prepare them for participation in conservation financial 
assistance programs.
    The 2002 Farm Bill was a hallmark for conservation in this 
country and we hope the 2007 Farm Bill will maintain this 
commitment to conservation. Conservation districts believe that 
every acre counts from a conservation perspective and that the 
farm bill needs to bring its conservation benefits to all 
producers on all ag lands.
    Thank you, Mr. Chairman, for the opportunity.
    Mr. Holden. Thank you, Mr. Sims.
    Mr. Beauduy.

 STATEMENT OF THOMAS W. BEAUDUY, DEPUTY DIRECTOR AND COUNSEL, 
  SUSQUEHANNA RIVER BASIN COMMISSION, HARRISBURG, PENNSYLVANIA

    Mr. Beauduy. Thank you, Mr. Chairman, Mr. Lucas, 
Subcommittee members, Chairman Peterson. We appreciate the 
opportunity to be here today to present testimony on this 
important issue.
    By way of background for the members, the SRBC is a federal 
interstate compact commission. In our basin, we are monitoring 
and assessing water quality, and on the water quantity side, we 
regulate allocations, diversions and consumptive uses.
    The basin itself is a fairly large basin, one of the 
largest in the east. It is home to some of the best productive 
ag lands in the United States and provides over 90 percent of 
the freshwater flow to the upper Chesapeake Bay and 50 percent 
of the freshwater flow to the bay overall.
    As is the case in other regions of the country, agriculture 
is central to the fabric of our basin. It comprises 21 percent 
of the land resource base of the basin and is significant 
economically, environmentally and culturally. Coupled with 
forest lands, which comprise 69 percent, these open-space lands 
comprise 90 percent of our land resource base and define the 
basin's rural identity.
    The conservation programs administered by USDA, 
particularly as they were expanded by the 2002 Farm Bill, have 
become critical both to sustaining agriculture and 
simultaneously minimizing its impact on the water resources of 
the basin. This holds true for the receiving waters of the 
Chesapeake Bay as well. As you know, we have got a nutrient 
problem both in the basin and baywide, and the conservation 
title is critically important to our nutrient reduction 
strategy.
    Reducing the nonpoint source nutrient loads, particularly 
from agriculture, because it is a major contributory source, is 
central to that reduction strategy.
    I will admit to you, unlike most of the other organizations 
presenting testimony here today, that the commission has not 
been actively engaged in the current deliberations over the 
provisions of the 2007 Farm Bill but what we are engaged in is 
the act of management of water sources in a significant eastern 
United States river basin, and from that vantage point, we 
understand and support the efforts to enhance both 
programmatically and financially USDA's conservation programs 
under the 2007 Farm Bill.
    We can appreciate your challenge in sorting through the 
emergence of various regional proposals, especially given the 
desire to bring fruition to a truly national farm bill and 
something that is within budget, I might add. We appreciate 
that very much.
    Coming from this region, it is obvious and easy to embrace 
a proposal like the Van Hollen proposal or other regional 
proposals that would benefit the region uniquely, but in the 
interest of time and because we are really here to try to offer 
a bottom-line perspective on what we think is important not 
just for our basin but for the country, I would like to just 
divert from my written comments, Mr. Chairman, and just speak 
to an issue that we think captures it fairly well.
    It doesn't seem appropriate for the region to expect that 
the obligation to reach its nutrient reduction goal should be 
carried on the back of the farm bill exclusively. Ag didn't 
cause the problem exclusively and shouldn't be looked at to 
exclusively solve it either. Having said that, we do think it 
is appropriate to rely on the conservation title to assist the 
ag community in the region to meet its portion of that 
obligation.
    We all know the cost of regulation affects business and 
sometimes substantially. Performers in regions of the country 
where nutrient impairment has reached a high enough level that 
they are confronting the regulatory implications of a TMDL, 
targeted assistance is vital to keeping those operations in 
business. I realize you aren't going to throw money at the Bay 
Region just because it is the Bay Region but I do think it is 
appropriate for you to consider directing funds and 
facilitating greater program participation to any area of the 
country, including the Bay Region, where farmers are facing an 
acute and heightened need due to a formal nutrient impairment 
designation and the obligations that come along with that 
designation and as a result having a TMDL hanging over the 
heads of that industry. It is vital to the sustainability of 
agriculture in those areas that it receive special assistance 
in order to be able to meet that burden and be competitive.
    All farmers face burdens but this class of farmers faces 
even greater ones. As someone who lives and works in one of 
those areas and someone who appreciates how important it is to 
maintain our regional agricultural base, we honestly believe 
that going the extra mile in the conservation title for any of 
those farmers anywhere in the country is sound public policy.
    Finally, in discussing programs designed to address water 
quality concerns, the commission believes that consideration 
should be given to an issue that traditionally had been on the 
water quantity side of the house. We believe that ensuring 
programmatic coverage to acreage known as critical aquifer 
recharge areas is important not only in a quantitative sense 
but a qualitative sense as well. Geologically, these areas have 
a very high recharge productivity. They are land surface areas 
that are responsible for a disproportionately large fraction of 
the groundwater recharge in a given area. Delineation and 
protection of these areas are significant not only for regional 
groundwater availability but for the maintenance of base flow 
of streams.
    During low flow conditions, that base flow is critical for 
aquatic health, water supply and importantly, for the 
assimilative capacity related to water quality. Also, because 
of their high recharge productivity, they can unfortunately act 
as aggressive conduits for surface contaminants including 
nutrients to the groundwater aquifer. That degraded groundwater 
ultimately discharges as base flow and adds to the nutrient 
load that we are trying to address.
    For all these reasons, we believe such areas genuinely 
constitute environmentally sensitive areas and are worthy of 
consideration, whether in CREP or any of the other conservation 
programs under consideration. I think it would be appropriate 
to include them to advance the water quality objectives that 
the conservation title is intended to address. Importantly, it 
would also advance a truly integrated approach to water 
resource management.
    Mr. Chairman, I appreciate the opportunity to present these 
comments and look forward to questions from the members.
    Mr. Holden. Thank you, Mr. Beauduy.
    Mr. Cook.

STATEMENT OF KEN COOK, PRESIDENT, ENVIRONMENTAL WORKING GROUP, 
                        WASHINGTON, DC.

    Mr. Cook. Thank you, Mr. Chairman. I appreciate the 
opportunity to summarize my remarks today. I have had the 
opportunity to appear before this Subcommittee on many 
occasions in the past. It has been a while though. My staff is 
through carbon-dating techniques trying to determine just how 
long it has been, but I very much appreciate the opportunity to 
be here today.
    I was struck in this panel and in the one that preceded it 
with the number of original ideas, strong ideas, both for 
refocusing and improving our conservation programs and also by 
the number of ideas and proposals to expand them. We aren't 
short of ideas. We aren't short of applicants but we have been 
short of money, and one of the things to I think point out as 
we consider the upcoming farm bill debate is the number of 
times over the past decade and a half or more that conservation 
programs that have been authorized in the farm bill have been 
cut deeply, billions and billions of dollars, and I think that 
helps explain some of the ambition you are hearing from this 
panel and the one before to try and do something for voluntary 
incentive-based programs that you see widely supported.
    I have two general points to make in my testimony. The 
first is just how incredibly important conservation is to the 
members of this Subcommittee. We have heard from two panels 
about how important it is to farmers and the environment. Well, 
the numbers we present in our testimony suggest it is also a 
big deal economically to agriculture. That wasn't the case 20 
years ago when this Subcommittee established the Conservation 
Reserve Program. It wasn't really the case even in 2002 when 
Mr. Lucas pushed through gigantic increases in the EQIP program 
but it is getting to be true now. It would be even truer if we 
hadn't seen so many cuts over the years.
    Just a couple of numbers to mention. The members of this 
Subcommittee alone just in the last three years, their 
districts have received $1.6 billion through the conservation 
programs, $1.6 billion, 162,000 beneficiaries of those programs 
and we break it down member by member. It is just about $10,000 
apiece on average over those three years between 2003 and 2005. 
That is money that is supported by and large by the entire 
conservation and environmental community and lots of people in 
agriculture.
    To look at it in a little more detail by a few districts, 
we have seven districts on the Committee who received more than 
$100 million over just the past three years. In terms of the 
number of recipients, seven districts had over 10,000 
beneficiaries, and as I mentioned earlier, an average of about 
$10,000 over those three years. In some districts, it is much 
more. We can only imagine how much more it would have been over 
time again if we hadn't seen some pretty significant cuts year 
in and year out.
    The second point to make has been made already. When you 
tabulate the unfunded requests for voluntary conservation 
efforts, $3 billion in the latest year that we had data for, 
2004, $3 billion across the United States. There is no need to 
make the point that farmers are interested in conservation. 
They are going to the USDA office, they are making their 
requests. The money is not there.
    I was also asked to address in my testimony the 
Conservation Security Program. I come at this from the 
perspective of my experience of the 1985 Farm Bill when my 
uncle, Paul, asked me when he heard about the Conservation 
Reserve Program. He had 1,000 acres of hay and pastureland, he 
had a cow-calf operation and he wondered just exactly why it 
was that those fellows a few counties north who had plowed out 
their land, planted it to corn, gotten commodity program 
benefits, were then going to be paid to plant it back so that 
it looked like the fields all around his operation. These are 
tough questions, Mr. Chairman. How do you reward stewardship as 
Ralph so eloquently said and at the same time efficiently use 
taxpayer dollars? I think the Conservation Security Program was 
the first effort on a large scale to try and do that.
    I want to commend to you the most recent evaluation that I 
have seen done of the program by two very distinguished 
experienced organizations, the Soil and Water Conservation 
Society and Environmental Defense. They did point to a number 
of problems that the program has had. Funding has complicated 
dramatically the way the program was implemented. We have spent 
a lot of money so far and under the contracts we now have in 
place we will spend it in the next few years for practices that 
according to the report were already in place. These are very 
important policy questions to ask as we seek to figure out a 
way to both reward people who have done the right thing all 
along and also make important gains in conservation by 
providing support to farmers to make the changes they need to 
protect the environment.
    Mr. Chairman, my time is up. Thank you for your attention.
    Mr. Holden. Thank you, Mr. Cook.
    Ms. Kemp.

 STATEMENT OF LONI KEMP, SENIOR POLICY ANALYST, THE MINNESOTA 
                   PROJECT, CANTON, MINNESOTA

    Ms. Kemp. Mr. Chairman and members of the Subcommittee, I 
want to thank you for the opportunity to discuss the 
conservation title of the farm bill. I represent the Minnesota 
Project, and we are members of the Sustainable Agriculture 
Coalition and the National Campaign for Sustainable 
Agriculture.
    I have been asked by the Subcommittee to focus my remarks 
on the Conservation Security Program and I would also like to 
touch on renewable energy implications for the environment, and 
I draw your attention to some other recommendations that I have 
included in my written testimony.
    The significant question for the next farm bill is, what do 
we want for the future of agriculture? Will the policies you 
enact this year enable us and our children to produce healthy 
food, a safe environment, clean energy and vibrant rural 
communities.
    I believe that the conservation title of the farm bill is 
possibly our Nation's most important environmental law. The 
farm bill determines how half the Nation's land is cared for 
and that is the land for which farmers and ranchers are the 
stewards. So this is where the fate of water quality lies in 
the farm bill, so too the fate of wildlife habitat, and even 
the long-term food security of our Nation. Add to that the huge 
positive contribution agriculture is poised to make towards the 
most pressing issues of our time, national energy security and 
global climate change, and we see that these conservation 
programs are essential to our Nation's future.
    I just arrived from Canton, Minnesota, and I can tell you 
that there is optimism in the countryside these days. Farmers 
believe they can help the country move toward homegrown 
renewable energy while they take care of the environment. I see 
a fundamental shift in the American perception of farmers. Of 
course, they produce our food and fiber but now they are also 
being called upon to produce clean water, renewable energy and 
a more stable climate.
    But why is the Conservation Security Program so important? 
It is unique in the toolbox of conservation programs that we 
have for our working lands. It is unique because it requires 
farmers to actually solve their resource problems to a 
sustainable level. CSP focuses on the whole farm. CSP is the 
only program that is focused on outcomes, allowing farmer 
innovation to determine the best way to meet and exceed 
explicit conservation goals and CSP is trade neutral. It 
creates a new paradigm for farm programs, a green payments 
program that rewards all farmers for their stewardship rather 
than production, and it has proven to be effective and popular. 
So far some 20,000 farmers have enrolled 16 million acres in 
the Conservation Security Program, securing over $2 billion in 
long-term commitments to excellence in land care. These are 
impressive numbers, however, there is a flipside. You are all 
aware that Congress has cut some $4 billion from CSP's funding 
and it has not been offered to all farmers by a long shot. Even 
as we sit here today, the fate of the 2007 sign-up for CSP 
hinges on whether the conferees will restore the funds for the 
2007 sign-up in that bill. That is the conferees on the 
supplemental appropriations bill. This on again, off again 
approach must come to an end and we hope this Committee will 
see that it happens.
    Today we are issuing the first comprehensive assessment of 
how CSP is working in a report called the Conservation Security 
Program Drives Resource Management. I believe you all have 
copies and there are copies for the press over there. 
Complementing the study that looked at data, we actually went 
out and decided to look at the program, how it was working on 
the ground. Along with collaborating organizations in the 
Midwest, 67 in-depth interviews with farmers were held and with 
NRCS staff who actually had to implement this program, and what 
we found is that CSP is indeed proving to be a catalyst for new 
conservation practices. The majority of farmers are adding 
practices in order to be eligible. They are adding practices 
when they sign up and take on more enhancements and they are 
adding a lot more when they get a chance to modify their 
contracts.
    We do think there are a number of fixes that are needed for 
CSP, as you have heard from some other people, and foremost 
among those is that Congress must provide adequate and 
protected funding. This is our top recommendation and you are 
undoubtedly hearing it from farmers and ranchers all over 
America. Other fixes that are needed are regular sign-up 
periods, transparency, increased use of full-fledged 
conservation planning, streamlining and better technical 
assistance.
    So turning to another farm bill priority, I would like to 
share a few thoughts on the implications of renewable energy 
for the environment and of course this Committee handles both 
of those topics as well as research, so this is the perfect 
place to talk about it.
    The most important thing is for you to focus on the 
transition to the next generation of biofuels to help 
accelerate our shift to perennial cellulosic biomass energy. 
This is an opportunity--you keep asking about where is the 
money going to come from. This is an opportunity truly to kill 
two birds with one stone in a sense because perennial 
cellulosic biomass by nature is going to contribute 
dramatically to some of the conservation needs that we have 
because it holds the soil in place, sequesters carbon, provides 
wildlife habitat and requires no tillage in the case of 
perennials and it is an especially effective solution to 
climate change. First of all, producing biofuels causes no net 
carbon to be emitted when the fuel is burned. Secondly, 
perennial crops hold carbon in the soil and capture it, and 
then thirdly, if we can convert to using biomass as the fuel 
source for our corn ethanol plants and displace the coal and 
natural gas, that is a triple winner.
    The Conservation Security Program is an ideal framework 
from which to help farmers begin to establish perennial biomass 
crops through enhancement payments. You could create cellulose 
crop sheds so that these farmers are working in areas where 
plants are likely to be built and we could ramp up cellulosic 
ethanol facility planning as well.
    So in summary, to make CSP as strong as possible, we ask 
that you fund it fully and extend sign-up opportunities to all 
who can meet the high standards and create clear and more 
streamlined implementation methods, and further, try CSP as a 
policy framework for perennial biomass energy feedstocks.
    Thank you for this opportunity to testify.
    Mr. Holden. I thank our witnesses for their testimony and I 
would first like to follow up with the same question that you 
probably heard me ask the first panel, and that was following 
up on Chairman Peterson's opening statement and Ranking Member 
Lucas's about the budget restraints we are going to face, and 
Mr. Cook, you bring up another concern that this Committee has 
had for a long time and that is of the appropriators getting 
their hands on some of the money that we authorize. Well, that 
is an age-old problem. I remember, and so does Ranking Member, 
Mr. Lucas, when we were sitting so far down we couldn't even 
see Kiki D'Ogartz, we could just hear him, but we could hear 
them complaining about Jamie Witten for taking the money away 
from the authorization funds, and that is a problem that is a 
reality. So these are the facts that we must face.
    So saying that, following up on the same question that I 
put to the first Committee, all of you have identified programs 
that you believe in, that you think are working well and that 
we should reinvest in. Living within the pay-go situation as we 
must, any suggestions where we could move money around and 
disinvest in any conservation program that is currently in 
effect? We are going to have this conversation with or without 
you so you might as well be in it, so------
    Mr. Nomsen. I would be happy to be in this conversation 
because it is an important one, and if you look through the 
slate of priorities that I offered as my testimony, obviously 
you will see that there is a--it is an aggressive list. There 
are new items on the list. There is expansion of programs. We 
think it is justifiable when dollars spent on conservation are 
an incredible value for the American taxpayer. There are items 
on that list, however, that also generate savings. For example, 
the sound saver provision that we were calling for. We are in 
the process of finding out exactly how much right now and we 
look forward to sharing that in more detail, and as you are 
waiting for your final numbers and kind of how it looks, we are 
also in the process of adding up what our list looks like and 
at that point in time perhaps it would be a good time to sit 
down and have further discussion about the pool of dollars that 
we have in comparison with the pool of programs and ideas and 
you will certainly see us talk about the success of proven 
programs that have worked well in the past. Mr. Chairman, I am 
thinking in particular about programs--you still have the 
number 1 CREP in the Nation in Pennsylvania.
    Mr. Holden. Yes.
    Mr. Nomsen. And while I can't quite pronounce Schuylkill 
County------
    Mr. Holden. You are close.
    Mr. Nomsen. It was close? That is good. And, you know, Mr. 
Lucas, looking at you, I think about the--we have a wonderful 
example of EQIP doing good things for fish and wildlife in the 
State of Oklahoma where we have a quail habitat restoration 
initiative going. So it is one of those examples of things that 
we can do to get more conservation out of current programs too 
and I think that is also part of the discussion that we have to 
have.
    Mr. Holden. Anyone else care to add anything to it? Mr. 
Sims.
    Mr. Sims. Mr. Chairman, members of the Committee, I guess I 
would make this comment from our organization, that our members 
are very much aware of the realties of the day of the federal 
budget, and we had a long discussion at our recent annual 
meeting about that particular issue, and the message that I 
delivered to you today is, we are not asking for any new 
programs. We do believe that there are ways to go through and 
make adjustments within the programs that we do have to find 
some savings, okay, and so I guess I would offer that. Are we 
willing to disinvest in conservation? Certainly not. Are there 
ways to improve? I believe that there is.
    Mr. Holden. And Mr. Sims, you suggested several different 
consolidations and we would like to pursue that as a 
Subcommittee. We are also a little bit concerned, at least I 
am, I don't mean to speak for the Ranking Member. Sometimes 
when you do that, a program loses its identity and ends up 
being in a situation where you can't participate to the level 
you would like to.
    Mr. Beauduy, thank you for your comments, and I appreciate 
your comments concerning our friend's from Maryland 
introduction of a bill that for our region there is no question 
about it, that it would be a very good thing. But within the 
political reality that we have to live, you know, 100 percent 
of that is just not possible. So what would you think would be 
one or two of the most important things that we could do in 
this farm bill for the Chesapeake Bay region, Susquehanna River 
Basin Commission's authority?
    Mr. Beauduy. Well, as I indicated, we--number one, I 
appreciate the concern that you just expressed, Mr. Chairman, 
and I understand that you and the members of this Subcommittee 
and the Full Committee need to exercise an amount of leadership 
and statesmanship that rises above any regional parochialism, 
and it is appropriate that you do that. Having said that, we 
still believe, and not being a student of conservation programs 
and actively involved in their implementation, I can offer 
specifics perhaps following this Committee hearing, but I will 
tell you in a general sense that to the extent that whatever 
the funding levels are for the programs, there is some priority 
given, and this is irrespective of region of the country, to 
wherever agriculture is facing a TMDL, because of the 
heightened burden that puts on agriculture in that region, that 
they be given some priority for participation and for funding.
    Mr. Holden. Thank you.
    Mr. Grossi, you mentioned in your remarks the Farmland 
Preservation Program, which is very important in Pennsylvania 
and Maryland and New York but not all that important in Mr. 
Lucas's district or I bet Mr. Ellsworth's district not all that 
important. As we look to reauthorize that, I remember being in 
New York at a Full Committee field hearing last year, hearing 
that there needed to be some changes made to it and I know that 
people in Pennsylvania have brought some recommendations to me, 
and you might have mentioned this in your remarks but if you 
could elaborate a little more on some tweaking we need to do to 
the Farmland Preservation Program?
    Mr. Grossi. I would be happy to, Mr. Chairman. First, I 
would say that while it may not be real important in Mr. 
Lucas's district now, it will be at some point. There are now 
27 states with state farmland preservation programs and the 
State of Texas is the most recent to add a statewide program. 
This issue of fragmentation and sprawl into agricultural areas 
and the breakup of ranches is an issue even in rural areas of 
this country. The Farm and Ranch Land Protection Program, as 
you know, has expanded significantly in the 2002 Farm Bill with 
authorization at almost $100 million a year. That program is 
the most efficient in leveraging non-federal resources of any 
of the conservation programs. There are about 2-1/2 dollars of 
non-federal money applied to those projects for every dollar of 
federal money so the nearly $100 million annual appropriation 
from the Federal Government is effectively getting $350 million 
of conservation on the ground. We are very proud of that and we 
think it probably offers a model for some of the other programs 
as you move forward, and I could come back to that if you would 
like. But there have been significant problems with this 
program and one of the largest problems is that these farmlands 
protection programs are very oriented to the unique 
circumstances of different states and different localities. 
Agriculture is different in different areas of the country and 
so the program that works well in Pennsylvania won't work well 
in Texas, likewise in Vermont versus California. These programs 
have been designated and customized for those states. You 
cannot then put an overlay on top of it of a one-size-fits-all 
set of regulations that forces all those states to rewrite 
their programs simply to meet some federal set of rules. So we 
are suggesting some changes that would allow those states that 
qualify, that have a proven track record of protecting land, 
monitoring that land, understanding how to work with farmers, 
give them some flexibility to operate within the rules that 
they have developed over the last 25 or 30 years and allow 
those programs to receive a grant instead of so that they would 
be not having to comply with all the rules in the federal rule 
that has been published by USDA. That doesn't mean all programs 
would be treated that way. Those that don't have a proven 
record that still need to prove themselves would have to live 
by the federal rules, and we think that is a fairly 
straightforward way to deal with this problem. There are other 
issues related to the implementation but we are prepared to 
offer some language that has been worked on by the 
commissioners of agriculture in many of these states that they 
now have an agreement on how they think the program should be 
fixed, and we will be glad to work with your staff on helping 
put that language together.
    Mr. Holden. Thank you.
    The chair recognizes Ranking Member.
    Mr. Lucas. Thank you, Mr. Chairman, and I was pleased to 
hear the panel use the phrase ``a gigantic increase in 
conservation spending in the last farm bill.'' Chairman Holden 
and I were extremely proud of what we were able to successfully 
make happen five years ago, and we have moved forward from 
there.
    Let me put the question to the panel and in particular 
perhaps Mr. Nomsen and Mr. Grossi, the question I asked the 
earlier panel and that is about the Conservation Reserve 
Program, CRP. There is discussion about whether the acreage 
should be increased, decreased, what should be done. I 
personally have taken the perspective that I view the 39 
million acres as a minimum number. I view the program though as 
one where we need to have flexibility in that many of the acres 
date back to the hold mid enrollments of the 1980s where 
perhaps land that became a part of the program did not meet 
what we would now define as the necessary environmental 
sensitivity goals.
    Could you touch on the subject, your perspectives and 
whoever on the panel would care to about the potential to allow 
some of that less environmentally sensitive land potentially to 
come out and then using that space to bring in property of a 
more sensitive nature? Your perspective, anyone?
    Mr. Nomsen. Well, Mr. Chairman, Ranking Member Lucas, let 
me offer a couple of thoughts on that. I think that is an 
important topic and I also was pleased today to hear 
essentially no one talk about reductions to the program, and as 
you know, we are still calling for a long-term goal of a 45-
million-acre CRP. We need to remember a couple things. One, 
first of all, it is a voluntary, incentive-based program. We 
already have a little over three million acres expiring this 
year right now and I think that is an important thought.
    I want to address your specific question about a pool of 
additional acres that may be able to come out of the program, 
and I would certainly offer all of our group's assistance to 
refine and discuss and define what the size of that pool of 
acres may be, how large is it, where are those acres. I would 
certainly encourage the Committee to at that particular point 
encourage leaving CRP buffers in place on those particular 
fields. I think the last thing we need to do is go back to a 
fencerow-to-fencerow farming situation and leaving buffers in 
place, we can certainly do some very good things for water 
quality, soil erosion and they will have some limited wildlife 
benefits, so let us have that discussion, and I want to thank 
you for also calling about the other aspect, and that is the 
benefits from CRP, especially the wildlife benefit, all of the 
benefits from CRP. They come from the fact that we do have a 
newly fully enrolled program and so I appreciate your thoughts 
talking about having a program that works out there, that is 
successful, and farmers and landowners, they receive enough 
economic compensation to encourage them to continue to apply at 
strong rates and participate in the program. So let us have 
further discussion on that area. Thank you.
    Mr. Grossi. I would just add, Mr. Lucas, that for those of 
us who were here in 1985 and when CRP was a dream, we can look 
back now and feel quite good about the accomplishments of the 
program, particularly in how it has evolved from a largely 
supply management /conservation program to a true environmental 
program, and we like that trend and we would encourage you to 
do things to continue on that path. That is, let us make sure 
the CRP really is focused on the highest quality or the highest 
environmental benefits just as you said earlier, particular 
attention to continuous sign-up and the CREP provisions, and we 
are willing to talk to you about creative ways that we might 
utilize all of the baseline. Like other conservation programs, 
CRP has unused baseline in the budget and so, you know, we like 
to think about how we can put that money to work for a real 
environment benefit. So we very much are supporters of the 
program and would like to see it continue to be focused more 
and more on the highest environmental benefits.
    Mr. Lucas. And I appreciate that, and coming as a successor 
to the old Soil Bank Program of the 1950s, we have a strong 
legacy. In the early CRP just as in Soil Bank, it was more of, 
as you use the phrase, a supply management program that 
happened to create, generate some wonderful environmental 
benefits. I just see as a voluntary program if commodity prices 
continue at their range and the feedback I get from the 
livestock community and, for that matter, the grain-producing 
community, some of those three million acres will come out. I 
guess I am sending through this hearing a message down the 
street that if those acres come out, we need to bring acres 
back in, not as contracts expire because producers will have 
the right to do that, to take their acres out, and then not 
replace those. That would be unacceptable to the wildlife 
community, unacceptable to the sportsmen's community, I think 
unacceptable to anybody out in the countryside who really 
thinks about this, but there is always a danger in the way that 
bureaucracies work.
    Mr. Chairman, if you would indulge me, I would like to ask 
Mr. Cook a question.
    Mr. Holden. Sure.
    Mr. Lucas. Can your group as famously always been very 
sensitive to where taxpayer dollars are spent in these farm 
bills and how the monies flow and where they wind up and there 
are some issues, and I don't even like to use that phrase, 
payment limitation, that will be in the jurisdictions of other 
Subcommittees. They will have to sort through that. But for 
just a moment let us talk about conservation and the dollars 
that come through the farm bill and where they go. As I said, 
your folks famously do lots of analysis on these things. Do you 
have any opinions on when it comes to conservation, should 
there be a means testing of a sort? Should there be payment 
limitations on what any individual can take from the program, 
should your outside income be reflective of that? Do you have 
any general observations on those kinds of issues?
    Mr. Cook. Well, Mr. Lucas, we have always said just as when 
we publish our web site, we put the names of everybody who gets 
conservation payments and who gets disaster payments in every 
commodity program. I don't think it is fair even though I am a 
proponent of conservation spending to leave those issues off 
the table on any of these other matters of public policy that 
come up, whether it is payments limits, setting limits on 
individual programs, considering means testing or anything 
else. I think conservation just at the beginning of that debate 
ought to be on the table.
    Mr. Lucas. I mean, some will argue in this Committee, I 
suspect, depending on how the number looks in a few days or a 
few weeks, how dismal it might be, that whether it is a banker 
or a doctor or a member of Congress, if you have the ability to 
do your conservation practices from your own pocket, is it fair 
to allow them, us, they, whoever to participate at the same 
level as producers or small property owners who just really 
cannot economically afford to spend that kind of money without 
the assistance that comes from cost share?
    Mr. Cook. Believe me, we will be sympathetic to that debate 
and considering that just as we are open to the idea that there 
are people who may be receiving commodity program benefits now 
who can well afford to operate. Maybe they are an absentee 
investor or owner. A new database we will be producing in about 
three weeks from USDA's data, the so-called section 1614 data, 
is pretty eye opening in terms of the number of beneficiaries 
in these programs. My concerning today was to talk about the 
importance of these conservation programs and the importance of 
looking at ways to refine them, but I do think this is part of 
the debate and I also think it is part of why we have so many 
new people coming forward saying I have been left out of the 
programs in the past and I have got to find who is lobbying for 
the goat and emu industry and get with them because they have 
evidently been very successful.
    Mr. Lucas. In a profession that makes far more money to be 
a media person perhaps or something where you can afford to do 
things that the rest of maybe cannot. I am not taking a 
position. I am just asking for some input, some advice because 
in spite of these rather dramatic increases in resources over 
the last five years, as soon as Chairman Holden and I met what 
we thought was the backlog five years ago and people realized, 
by golly, you just might be able to qualify for that, it might 
really be there, the backlog exploded exponentially. So there 
will be some of these topics of discussion in the coming days, 
weeks and months about how to stretch those precious resources 
to maximize our input. Thank you.
    Mr. Holden. The Ranking Member yields back.
    They called for a vote now, so before we thank the panel 
for their testimony today, Mr. Beauduy, a question I forgot to 
ask, I am not sure if you can answer it or not, do you have any 
idea how much money the Federal Government spends on 
conservation in the Chesapeake Bay region annually?
    Mr. Beauduy. No, I can't. I have that number available but 
I didn't bring it with me. I do know that when the last cost 
analysis was done, they looked at an $18 billion need, a 
shortfall of about $12 billion, and that was a projection, an 
8-year projection from 2002 to 2010. Of that $6 billion, I 
believe $4.5 billion was federal dollars.
    Mr. Holden. Thank you.
    The Chair wishes to thank the witnesses for their testimony 
today.
    Under the rules of the committee, the record of today's 
hearing will remain open for 10 days to receive additional 
material and supplementary written responses from witnesses to 
any question posed by a member of the panel.
    This hearing of the Subcommittee on Conservation, Credit, 
Energy, and Research is adjourned.
    [Whereupon, at 3:44 p.m., the Subcommittee adjourned.]

    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
